<html>
<title> - TRIBAL TRANSPORTATION: PATHWAYS TO INFRASTRUCTURE AND ECONOMIC DEVELOPMENT IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 113-406]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-406

 
                   TRIBAL TRANSPORTATION: PATHWAYS TO
                      INFRASTRUCTURE AND ECONOMIC
                     DEVELOPMENT IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs




	                  U.S. GOVERNMENT PRINTING OFFICE

	 89-859 PDF                       WASHINGTON : 2014
	 -----------------------------------------------------------------------
	   For sale by the Superintendent of Documents, U.S. Government Printing
	   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
	          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on March 13, 2014...................................     1
Statement of Senator Barrasso....................................    13
Statement of Senator Heitkamp....................................    14
Statement of Senator Murkowski...................................    42
Statement of Senator Tester......................................     1

                               Witnesses

Black, Michael, Director, Bureau of Indian Affairs...............     3
    Prepared statement...........................................     4
Buckles, Hon. Dana, Tribal Executive Board Member, Assiniboine
  and Sioux Tribes of the Fort Peck Reservation..................    21
    Prepared statement...........................................    23
Martel, Hon. Wes, Member, Joint Business Council of the Eastern
  Shoshone and Northern Arapaho Tribes of the Wind River Indian
  Reservation....................................................    26
    Prepared statement...........................................    28
Sparrow, Robert W., Director, Tribal Transportation Program,
  Federal Highway Administration, U.S. Department of
  Transportation.................................................     7
    Prepared statement...........................................     9
Thomas, Edward K., President, Central Council of Tlingit and
  Haida Indian Tribes of Alaska..................................    32
    Prepared statement...........................................    34

                                Appendix

Andersen, Ralph, President/CEO, Bristol Bay Native Association
  (BBNA), prepared statement.....................................    88
Bahnke, Melanie, President, Kawerak, Inc., prepared statement....    57
Jourdain, Jr., Hon. Floyd, Chairman, Red Lake Band of Chippewa
  Indians, prepared statement....................................    64
Hall, Hon. Tex, Chairman, Mandan, Hidatsa and Arikara Nation
  (MHA), prepared statement......................................    80
Healy Sr., C. John, President, Intertribal Transportation
  Association (ITA), prepared statement..........................    51
Ho-Chunk Nation, prepared statement..............................   100
Lone Tree-Whiterabbit, Kathyleen, District 5 Legislator/Tribal
  Secretary; David Greendeer, District 2 Legislator; Andrea
  Estebo, District 2 Legislator, Ho-Chunk Nation, joint prepared
  statement......................................................    49
National Congress of American Indians (NCAI), prepared statement.    59
McDonald, Ph.D., Leander R., Chairman, Spirit Lake Tribe,
  prepared statement.............................................    96
Response to written questions submitted by Hon. Lisa Murkowski
  to:
    Michael Black................................................   116
    Robert W. Sparrow............................................   117
Small, Hon. Nathan, Chairman, Fort Hall Business Council,
  prepared statement.............................................    68
Standing Rock Sioux Tribe, prepared statement....................    73
Vallo, Sr., Hon. Fred, Governor, Pueblo of Acoma, prepared
  statement......................................................    77
Vizenor, Hon. Erma J., Tribal Chairwoman, White Earth Band of
  Ojibwe Indians.................................................    97


                   TRIBAL TRANSPORTATION: PATHWAYS TO
                      INFRASTRUCTURE AND ECONOMIC
                     DEVELOPMENT IN INDIAN COUNTRY

                              ----------


                        THURSDAY, MARCH 13, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in
room 628, Dirksen Senate Office Building, Hon. Jon Tester,
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER,
                   U.S. SENATOR FROM MONTANA

    The Chairman. We will call this hearing to order. Good
morning. Welcome and thank you all for being here today. We are
meeting at a different time than we normally meet, the
Committee appreciates everybody's flexibility.
    Today the Committee is holding an oversight hearing on
tribal transportation programs at the Department of Interior
and the Department of Transportation. Later this year, the
current authorization of the transportation programs will
expire and will have to be renewed. The Committee would like to
take this opportunity to examine how tribal transportation
programs are working and how we can build on the progress of
the last authorization.
    I recently visited with several Indian tribes in Montana,
my home State, and traveled some of the very roads that we are
going to be discussing. Today, the infrastructure needs in
Indian Country are great, and for Indian communities to
increase economic development and opportunities on
reservations, we must invest in improving and expanding
transportation infrastructure.
    These investments are aligned with the Federal Governments'
treaty and trust responsibility to American Indians, and these
investments are crucial to improving the quality of life on
tribal lands. It is not just economic development, it is safe
and adequate roads and highways that are critical to the other
issues such as public safety and education.
    On some Indian reservations, children spend two hours a day
traveling to and from school on roads that, quite frankly, are
not adequate. And this is when there is transportation
available. We hear far too often about the unspeakable
tragedies of pedestrians being struck while walking alongside
some of the most remote and dangerous highways, roadways in the
Country. Just last month, a young girl from Northern Cheyenne
Reservation was struck and killed along highway 212, a road
that has seen an incredible increase in use in recent years.
This is unacceptable.
    The dire conditions of these roads lead to delayed response
times for law enforcement, and for medical assistance.
Investments in improved roads can speed up response time and
ultimately will save lives.
    Motor vehicle accidents are the number one cause of death
of American Indians age 1 through 34 and the third overall
cause of death for all American Indians. Many of these deaths
are preventable. As we prepare for the reauthorization, we must
look for ways to reduce the amount of motor vehicle accidents
and improve safety on our reservations.
    Lastly, we need to invest in transit programs. Whether it
is a trip to the doctor or ride to work, folks need public
transportation options that they can count on. The last
reauthorization doubled the amount of funding for tribal
transit programs, but there is still plenty of work left to do.
    I want to thank the witnesses for traveling a long way to
Washington, D.C. to present your perspective on this important
issue. I would like to personally welcome Mr. Dana Buckles from
the Fort Peck Reservation in my home State of Montana. I am
looking forward to visiting Fort Peck this next Sunday and
bringing Secretary Jewell to Montana to show her the
reservation. Thank you all for being here.
    Senator Barrasso is on his way and when he gets here we
will certainly give him the opportunity for an opening
statement. But first I think we will just go right straight to
the panel. I would like to welcome our first panel of Federal
witnesses. We have Mr. Mike Black, the Director of the Bureau
of Indian Affairs at the Department of Interior. Prior to this
position, Mike was the Regional Director for the BIA's Great
Plains regional office in Aberdeen, South Dakota, which
includes North and South Dakota, Nebraska and Iowa. Prior to
that, Mike was the Deputy Regional Director for Indian Services
in the Bureau's Rocky Mountain regional office in Billings,
Montana. Obviously, given his experience, Mike understands the
needs of Indian Country.
    In addition to Mr. Black, we have Mr. Bob Sparrow, who is
the Director of Tribal Transportation Programs for the Federal
Highway Administration. Bob has worked for Federal Highways for
18 years and he has overseen the Federal Highways Tribal
Transportation Program for the last 10 years. Bob was directly
involved in the development of the Federal Highway Tribal
Transportation Program agreements.
    Welcome, Mr. Black and Mr. Sparrow. Mr. Black, we will
start with your testimony. I would just say that your entire
testimony, your entire written testimony has been in both
cases, and in all cases with these hearings, will be a part of
the record. We look forward to your verbal presentation. Mr.
Black?

 STATEMENT OF MICHAEL BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS

    Mr. Black. Thank you. Good morning Chairman Tester. Thank
you for the opportunity to provide testimony in this oversight
hearing on the topic of Tribal Transportation: Pathways to
Infrastructure and Economic Development in Indian Country. I am
Mike Black, and I am the Director of the Bureau of Indian
Affairs.
    The Department and BIA remain committed to improving and
adequately maintaining transportation systems to provide
increased public safety and economic development opportunities
to Indian communities. Transportation is a necessity for
economic development, health, safety and education in our
Native communities.
    The BIA and the Federal Highway Administration have been
involved in the repair, construction and reconstruction of
roads on Indian reservations since the 1920s. From 1950 until
1983, Congress appropriated annual construction and maintenance
funds to the BIA to maintain, repair and construct roads on
Indian reservations.
    The Surface Transportation Assistance Act of 1982
established the Indian Reservation Roads, or IRR Program,
funded within Federal Highways' Federal-aid account. Since the
establishment of the IRR Program and its successor, the Tribal
Transportation Program, as part of MAP-21, the Transportation
Program has been jointly administered by the BIA and the
Federal Highways.
    The Tribes currently have five options to administer and
deliver the Tribal Transportation program: self-determination
contracts, self-governance annual funding agreements, Federal
Highway programmatic agreements, direct service provided by the
BIA, or the most recent option developed by BIA, the BIA
program agreement. The BIA program agreement was developed in
order to provide tribes an additional option to deliver the
Tribal Transportation Program. Since its implementation in
2011, 168 tribes have selected to use the BIA program
agreements for administration of the Tribal Transportation
Program.
    Currently there are approximately 125 self-determination
agreements, 151 BIA program agreements covering 168 tribes, 46
self-governance agreements and approximately 119 Federal
Highway programmatic agreements. Approximately 83 percent of
the tribes are contracting under self-determination, self-
governance or Title 23 program agreements. Each contracting
agreement is designed to meet specific needs and administrative
capacity of each tribe.
    The Administration's fiscal year 2015 budget reflects the
President's continued commitment to addressing transportation
needs in American Indian and Native communities. This budget
recognizes that supporting safe and reliable transportation
with public road access to and within Indian Country
contributes to stronger tribal economies, communities and
families.
    As we discuss the need for jobs, infrastructure and safety
of roads in Indian communities, it is important to note our
support for the reauthorization of MAP-21. The most significant
impact on the Tribal Transportation Program under MAP-21 is the
implementation of the new formula established by Congress and
the fact that more funding is available for distribution to
tribal sharers under the new formula. This has allowed for more
funding to be directed to tribal priorities.
    The new formula also allows for a consistent estimate of
allocations in advance for future projects and timely
allocation to tribes, because a major portion of the data is
known prior to the beginning of the fiscal year.
    Although more funding is allocated to tribes for their
priorities, certain programs have decreased shares under MAP-
21. As an example, the bridge program has decreased
significantly from a separate program of $14 million per year
to less than $9 million per year. However, the bridge set-aside
proposed in the 2015 budget would address this concern by
providing approximately $20 million to address critical bridge
needs in Indian Country.
    Although the MAP-21 formula has addressed the longstanding
issue of the competitive formula, there are implementation
issues regarding the application of certain data to calculation
of tribal shares. As an example, approximately 28 or more
tribes do not have a recorded population within the statutorily
mandated American Indian and Alaska Native population within
each Indian tribe's reservation or statistical area.
    We believe the rationale for considering this data was to
reflect the relative need due to tribal population of the
impacted tribes. But we do not believe it was designed to
impact certain tribes without any population based funding. The
use of a default minimum or alternative set such as the BIA
labor force report, in addition to the NAHASDA based values to
make allocations, would help provide some equality to tribes
that are currently disadvantaged.
    While tribes with zero population as reported in NAHASDA do
not receive funding based on population, they do receive some
consideration for funding under other elements of the formula,
including total eligible road mileage as of 2004 and the ratio
of the average of the share of percentage from fiscal years
2005 through 2011, as compared to the amount for all tribes
within the respective regions.
    Recently recognized tribes and any tribes recognized in the
future may receive little or no funding because they do not
have a population recorded in the required data base, they do
not have any eligible miles and they do not have a history of
funding as required by the third element of the formula.
    The Bureau of Indian Affairs and the Department are
committed to continue working with this Committee and others in
Congress to address the transportation needs of Indian Country.
Thank you for the opportunity to present testimony on an issue
that is an important part of the employment, economic
infrastructure and road safety for tribes. I will be happy to
answer any questions you may have.
    Thank you.
    [The prepared testimony of Mr. Black follows:]

Prepared Statement of Michael Black, Director, Bureau of Indian Affairs
    Good morning Chairman Tester, Vice Chairman Barrasso, and members
of the Committee. Thank you for inviting the Department of the Interior
(Department) to provide testimony at this oversight hearing on the
topic of ``Tribal Transportation: Pathways to Infrastructure and
Economic Development in Indian Country.'' My name is Mike Black, and I
am the Director of the Bureau of Indian Affairs (BIA) at the
Department.
    As this Committee is aware, the Department provided testimony
before this Committee in the 112th Congress on the topic of
``Strengthening Self-Sufficiency: Overcoming Barriers to Economic
Development in Native Communities.'' We identified that one of the many
barriers to economic development in Native Communities was the lack of
physical infrastructure. In February 2014, the Administration announced
its vision for transportation. The emphasis continues to be promoting
job growth in the transportation sector and putting more Americans back
to work repairing and modernizing our roads, bridges, railways, and
transit systems. This includes the roads and bridges that are
constructed, maintained and traversed in Indian Country. We appreciate
the recognition in the President's proposal for the importance of
transportation programs to Indian County. As you will hear in my
remarks, transportation is a necessity for economic development, health
and safety and education in Indian Country.
    The Department and the BIA remain committed to improving and
adequately maintaining transportation systems to provide increased
public safety and economic development opportunities in Indian
communities. Safe roads are important when transporting people in rural
areas to and from schools, to local hospitals, and for delivering
emergency services. In addition, transportation networks in American
Indian and Alaska Native communities are critical for economic
development in such communities because these transportation networks
provide access to other economic markets. I appreciate this opportunity
to share with the Committee some of our accomplishments and also our
concerns for tribal transportation as we implement MAP-21 and look to
reauthorization of this important law.
Overview
    The BIA and the Federal Highway Administration within the
Department of Transportation (FHWA) have been involved in the repair,
construction and reconstruction of roads on Indian Reservations since
the 1920s. From 1950 until 1983, Congress appropriated annual
construction and maintenance funds to the BIA to maintain, repair and
construct roads on Indian Reservations through the Department of the
Interior. During this time, approximately $1.2 billion was provided for
both construction and maintenance of reservation roads.
Tribal Transportation Program
    The Surface Transportation Assistance Act of 1982 established the
Indian Reservation Roads (IRR) Program funded within FHWA's Federal-aid
account. Since the establishment of the IRR Program and its successor
as part of MAP-21, which is now called the Tribal Transportation
Program (TTP), the total Federal construction authorization for Tribal
Transportation has exceeded $8 billion. The TTP is jointly administered
by the BIA and the FHWA. These investments have contributed greatly to
the improvement of roads and the replacement or rehabilitation of
deficient bridges on or near reservations throughout Indian Country.
    Today, the National Tribal Transportation Facility Inventory
(NTTFI) consists of over 158,000 miles of public roads with multiple
owners, including Indian tribes, the BIA, states, and counties, as well
as other Federal agencies. Of this amount, approximately 11,500 miles
are planned or proposed roads of varying surface types and uses. There
remains a great and continuing need to improve the transportation
systems throughout Indian Country. We believe Congress has viewed this
as a joint responsibility including not only Federal agencies, but
state and local governments with transportation investments in or near
American Indian and Alaska Native communities, as well. Coordination
among all of these stakeholders is required in order to maximize
available resources to address transportation needs. Tribes are
continuing to invest in transportation projects that are the
responsibility of other public authorities. This creates jobs and
contributes to the economy of local businesses that provide services
and materials. Strengthening existing partnerships will continue to
support the local economy and bring improved infrastructure to
communities on or near Indian reservations and lands. In all, tribes
have planned transportation projects estimated to lead to approximately
$270 million worth of investment in non-BIA and non-Tribal projects
over the next 3 years. An investment in tribal transportation is truly
an investment in the local economy.
    The Bureau of Indian Affairs responded to the 1991 highway
legislation, the Intermodal Surface Transportation Equity Act of 1991
(ISTEA), and recognized the importance of our Nation's transportation
infrastructure to recreational travel, tourism and trade, and our
ability to compete in the global marketplace. This was an opportunity
for BIA and the tribes to participate in the dialog and have a say in
the execution of transportation programs. This is important because the
opportunity to develop robust economic growth is closely tied to access
to transportation and related infrastructure. The BIA has invested
resources toward the development of technical assistance and training
for tribal tourism development through the establishment of the
American Indian Tourism Conference in 1999 and the American Indian
Alaska Native Tourism Association (AIANTA). AIANTA has become a voice
for Indian Country to the tourism industry and is successfully helping
tribal communities to realize their potential in the global tourism
industry. Tribes deserve the ability to provide visitors with
reasonable transportation access and safety to their rural homelands
and to share their history and culture with the travelling public
through transportation enhancements such as context sensitive design,
interpretive signage, informational kiosks, and scenic byways. We
believe Indian Country tourism is a tremendous asset to America's
international tourism competitiveness and a worthy investment.
BIA Road Maintenance
    In partnership with the Department of Transportation, the BIA
currently implements both the TTP program, funded by within the
Federal-aid account, and the BIA Road Maintenance Program, funded by
the Department of the Interior. The BIA Road Maintenance Program has
traditionally been responsible for maintaining only roads owned by the
BIA. Today, of the 146,000 miles of existing roads in the NTTFI, the
BIA has responsibility for approximately 29,500 miles of roads
designated as BIA system roads. The BIA receives approximately $25
million in Tribal Priority Allocation (TPA) funding annually for the
administration of the road maintenance program for those roads.
    BIA supports self-determination and the empowerment of tribes by
contracting out a significant portion of the program with tribes.
Approximately 85 percent of tribes with BIA system roads within their
reservation boundaries currently carry out the BIA Road Maintenance
Program through self-determination contracts or agreements.
Approximately 22,200 miles (75 percent) of the BIA system roads are not
paved and are considered ``inadequate'' based on the level of service
index used to assess roads and bridges in the BIA road system. The FY
2013 deferred maintenance for BIA roads was estimated at $280 million.
FY 2015 Budget Request for Tribal Transportation
    The Administration's FY15 budget reflects the President's continued
commitment to addressing the transportation needs of Indians and Native
Americans. This budget recognizes that supporting safe and reliable
transportation and public road access to and within Indian Country
contributes to stronger tribal economies, communities and families.
Highlights of the FY 2015 budget for the Tribal Transportation Program
include:

  <bullet> Program funding is increased from $450M to $507M. The
        increased amount is targeted toward new and/or increased set-
        asides.

  <bullet> The Tribal High Priority Projects Program is integrated back
        into the core program as a 7 percent set-aside. MAP-21 had
        authorized this as a separate program funded from the General
        Fund.

  <bullet> Increased the tribal planning set-aside from 2 percent to 3
        percent to address additional data collection requirements.

  <bullet> Increased the tribal bridge set-aside from 2 percent to 4
        percent to address the growing backlog of tribal bridge needs.

    The program structure and funding formula under MAP-21 are
retained. The FY 2015 budget also includes a new $150M program for
large, nationally significant projects accessing federal and tribal
lands that cannot typically be funded through core funding allocations
to tribes or Federal agencies.
Reauthorization of MAP-21
    As we discuss the need for jobs, infrastructure and safety of roads
in Indian communities, it is important to note our support for the
reauthorization of MAP-21. The most significant impact to the TTP
program under MAP-21 is the implementation of the new formula
established by Congress. One significant difference is that more
funding is available for distribution to tribal shares under the new
MAP-21 formula, although the MAP-21 allocation is equal to the amount
for the last year of SAFETEA-LU. The formula share of IRR program funds
in FY 2011 and 2012 were respectively $336.7 million and $322.3
million. The formula share of TTP funds in FY 2013 and FY 2014 were
respectively $387.6 million and $384.3 million. This has allowed more
funding to be directed to tribal priorities. The new formula also
allows for a consistent estimate of allocations in advance for future
projects and timely allocation to tribes because a major portion of the
data is known prior to beginning of the fiscal year.
    Although more funding is allocated to tribes for their priorities,
certain programs have decreased shares under MAP-21. The bridge program
is decreased significantly from a separate program of $14 million per
year to a set-aside program from within the total amount of less than
$9 million per year. However, the bridge set-aside proposed in the FY
2015 budget would address this concern by providing approximately $20
million to address critical bridge needs in Indian Country.
    In addition, the requirement of the Secretaries of Transportation
and Interior to perform safety inspections on all 930 tribally-owned
bridges has not been adequately funded. The number of bridges which are
deficient or functionally obsolete and are eligible for replacement or
rehabilitation for BIA bridges alone in the 2012 National Bridge
Inventory is approximately 170 of 930 (or 18.7 percent of the total).
The estimated cost of correcting these deficiencies is $53.2 million.
The estimated cost of inspecting the tribally-owned bridges along with
the BIA is $3.0 million every other year.
    Although the MAP-21 formula has addressed the long standing issue
of competitive formula, there are implementation issues regarding the
application of certain data to the calculation of tribal shares. As an
example, approximately 28 or more tribes do not have a recorded
population within the statutorily mandated American Indian and Alaska
Native population within each Indian tribe's American Indian/Alaska
Native Reservation or Statistical Area, as computed under the Native
American Housing Assistance and Self-Determination Act of 1996 (25
U.S.C. 4101 et seq.). We believe the rationale for considering this
data was to reflect a relative need due to tribal population of the
impacted tribes, but we do not believe it was designed to in effect
leave certain tribes without any population-based funding. The use of
default minimum or alternate data such as the BIA Labor Force Report in
addition to the NAHASDA based values to make allocations would help to
provide some equality to tribes that are currently disadvantaged.
    While tribes with zero population, as reported in NAHASDA, do not
receive funding based on population, they do receive some consideration
for funding under the other elements of the formula including total
eligible road mileage as of 2004, and the ratio of the average of the
share percentage from fiscal years 2005 through 2011 as compared to the
amount for all tribes within the BIA Region. Recently-recognized tribes
and any tribes recognized in the future may receive little or no
funding because they do not have a population recorded in the required
database, they will not have any eligible miles, and they do not have a
history of funding as required by the third element of the formula.
Conclusion
    The Bureau of Indian Affairs and the Department are committed to
working with this Committee and others in Congress to address the
transportation needs in Indian Country through our support for the
Tribal Transportation Program, the Road Maintenance Program, and other
Title 23 USC funding provided for transportation in Indian Country.
    Thank you for the opportunity to present testimony on an issue that
is an important part of the employment, economic infrastructure and
roads safety for tribes. I will be happy to answer any questions you
may have.

    The Chairman. Thank you for your testimony, Mr. Black.
There will be questions.
    Mr. Sparrow, you are up.

       STATEMENT OF ROBERT W. SPARROW, DIRECTOR, TRIBAL
            TRANSPORTATION PROGRAM, FEDERAL HIGHWAY
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Sparrow. Thank you, Chairman Tester. Thank you for the
opportunity to testify today to discuss Federal Highways'
Tribal Transportation Program and the future of transportation
needs of tribes.
    At last year's White House Tribal Leaders Conference,
Secretary Fox emphasized the Department's commitment to tribal
transportation by announcing $8.6 million in awards to 183
tribes for improving transportation safety on their lands.
During that conference, the Secretary also held the DOT Tribal
Transportation Listening Session where tribal leaders could
discuss their transportation-related issues directly with the
leadership of the various DOT administrations. The Department
also continues to implement our tribal consultation plan which
outlines actions we take when developing, changing and
implementing policies, programs, services with tribal
implications.
    Federal Highway has a long history of supporting tribal
governments' rights to self-determination and working directly
with tribes in a government-to-government relationship. We meet
directly with tribal government elected officials and
transportation staff, and I am committed to delivering a
transportation program that works for all tribes, no matter
their size.
    We also continue to seek ways to improve the state of
tribal transportation by working directly with tribal
governments to improve their technical capacity as well as
foster relationship and partnerships between themselves and the
local governments, Federal agencies and State DOTs.
    Federal Highway continues to implement the Tribal
Transportation Program in accordance with MAP-21 and in
partnership with the Bureau of Indian Affairs. The Tribal
Transportation program serves the 566 federally-recognized
tribes and Alaska Native villages in 32 States. It includes
similar provisions and eligibility requirements as the former
Indian Reservation Roads program and provides $450 million
annually for projects that improve access to or are located
within tribal lands.
    The TTP funding is distributed according to MAP-21
statutory formula, and that is taking effect over a four-year
transitional period. The program seeks to balance
transportation mobility and safety goals with the environmental
and cultural values of tribal lands.
    Since SAFETEA-LU, tribes have been authorized to enter into
program funding agreements and work directly with the Federal
Highway Administration for the operation of the program. The
first four tribes began working directly with Federal Highway
in 2006. Today, 119 tribes work directly with Federal Highway.
    As the number of tribes working with Federal Highway has
increased, we have strengthened our stewardship and oversight
role by adding staff and working closely with tribes and the
Bureau of Indian Affairs to develop uniform program guidance.
To this end, we coordinate annual face to face meetings with
each tribe and conduct outreach and training through webinars,
regional conferences and organized classes.
    We also continue to utilize and update our Tribal
Transportation Program manual, which communicates program
expectations, roles and responsibilities and best practices for
all the tribes, States, counties and Federal agencies to use.
The Federal Highways' Every Day Counts Initiative encourages
the use of technology and innovation to significantly reduce
the time and cost of delivering projects. For tribes, we
promote this initiative through our seven tribal transportation
assistance program centers by providing information to tribes
and assisting them in carrying out their projects. Federal
Highway also supports tribal workforce development through
these TTAP centers, which helps improve skills, and increase
knowledge of tribal transportation managers.
    Moving beyond MAP-21, President Obama recently proposed a
budget for the next fiscal year and laid out his vision for the
four-year surface transportation authorization to spur further
economic growth in sound multi-year investments. This request
includes increased funding for the Tribal Transportation
Program and two additional programs for particular tribal
projects.
    Thank you again for this opportunity to testify. I will be
pleased to answer any questions that you may have.
    [The prepared statement of Mr. Sparrow follows:]

       Prepared Statement of Robert W. Sparrow, Director, Tribal
Transportation Program, Federal Highway Administration, U.S. Department
                                  of
                             Transportation
    Chairman Tester, Vice Chairman Barrasso, and Members of the
Committee, thank you for the opportunity to testify today to discuss
the Federal Highway Administration's (FHWA's) Tribal Transportation
Program (TTP) and the future transportation needs of Tribes.
    The transportation needs of Tribes are often different than what we
see needed elsewhere in the U.S. transportation network. In much of
this country, we take for granted that roads and highways will be there
for children to reach their schools, for emergency vehicles to reach
those in need of medical care, and for members of the community to get
to work. But, in Indian Country, we cannot always make that assumption.
Moreover, tribal communities need good roads to support economic
development.
    At last year's White House Tribal Leaders Conference, Secretary
Foxx emphasized the Department of Transportation's (DOT's) commitment
to tribal transportation by announcing $8.6 million in awards to 183
Tribes for improving transportation safety on their lands. In addition,
the Secretary held a DOT Tribal Transportation Listening Session with
tribal leaders. This session provided tribal leaders with an
opportunity to meet with representatives from each DOT modal
administration and provide input on important transportation issues
affecting tribal communities. The Department also continues to
implement our Tribal Consultation Plan, which outlines actions the
Department takes when developing, changing, or implementing policies,
programs, or services with tribal implications.
    The FHWA has a long history of supporting tribal governments'
rights to self-determination and working directly with Tribes in a
government-to-government relationship. We meet directly with tribal
government elected officials and transportation staff, and are
committed to delivering a transportation program that works for all
Tribes, no matter their size.
    We also continue to seek ways to improve the state of tribal
transportation by working directly with tribal governments to improve
their technical capacity and to foster partnerships between tribal
governments, local governments, Federal agencies, and State DOTs.
The FHWA Tribal Transportation Program
    The current surface transportation law, MAP-21, authorized the TTP.
This program, administered by FHWA in partnership with the Bureau of
Indian Affairs (BIA), is the largest Federal Lands Highway (FLH)
program and is unique due to the relationship with Federally-recognized
Indian Tribal Governments under the program. The program serves 566
Federally-recognized Indian Tribes and Alaska Native villages in 32
States. TTP funding can be used to pay the costs of transportation
activities and projects such as planning, research, maintenance,
engineering, rehabilitation, restoration, construction, and
reconstruction of facilities identified on the National Tribal
Transportation Facility Inventory (NTTFI).
    The TTP includes similar provisions and eligibility requirements as
the former Indian Reservation Roads program. The TTP provides $450
million annually for projects that improve access to and within Tribal
lands. The roads, bridges, and trails that are included as part of the
TTP system provide access to and within Indian reservations, Indian
trust land, restricted Indian land, eligible Indian communities, and
Alaska Native villages.
    The TTP is critical to supporting the transportation needs on this
system. In many cases, it is the only source of funding for
transportation improvements. TTP funding is distributed according to a
statutory formula based on tribal population, road mileage, and average
funding under the 2005-2009 SAFETEA-LU Act, plus an equity provision,
and takes effect over a four-year transitional period. The TTP seeks to
balance transportation mobility and safety goals with the environmental
and cultural values of tribal lands.
    FHWA also works with the Federal Transit Administration and
National Highway Traffic Safety Administration in coordinating
transportation programs that focus on planning, safety, and
construction of roads and transit services within Indian Country. We
also continue to highlight other funding opportunities available to
Tribes under MAP-21, such as the Highway Safety Improvement Program,
and we stand ready to assist Tribes with permanent and emergency
repairs through our Emergency Relief program.
    Additionally, we are implementing the dedicated set-aside under TTP
for Tribes to address safety issues in Indian Country. As a 2 percent
set-aside from the TTP ($8.6 million in Fiscal Year (FY) 2013), these
funds are competitively awarded to Tribes based on an identification
and analysis of highway safety issues and opportunities on tribal land.
With input from the Tribal Transportation Program Coordinating
Committee, we established goals for this funding and issued a Notice of
Funding Availability (NOFA) on August 5, 2013. In response, we received
more than 240 tribal applications for a total of more than $27 million
in requests. From these applications, DOT awarded $8.6 million to 183
Tribes. We plan to issue a NOFA for the FY 2014 safety set-aside soon.
FHWA/Tribal TTP Funding Agreements
    Since SAFETEA-LU, Tribes have been authorized to enter into Program
Funding Agreements and work directly with FHWA (rather than BIA) for
the operation of their program. The first four Tribes began working
directly with FHWA in 2006. Today, 119 Tribes work directly with FHWA.
    As the number of Tribes working with FHWA has increased, we have
strengthened our stewardship and oversight role by adding staff and
working closely with the Tribes and BIA to develop uniform program
guidance. To this end, we coordinate annual face-to-face meetings with
each Tribe and conduct outreach and training through webinars, regional
conferences, and organized classes. We also continue to utilize and
update our TTP program manual, which communicates program expectations,
roles and responsibilities, and best practices for all Tribes, States,
counties, and Federal agencies to use.
Transportation Investment Generating Economic Recovery
    From 2009 through 2013, the DOT solicited applications for the
Transportation Investment Generating Economic Recovery (TIGER) Grants.
During this period, Tribes acting alone or in cooperation with State or
local agencies were successful in receiving 13 projects totaling more
than $80 million from this program.
    For example, the Eastern Shoshone/Northern Arapaho Tribes of the
Wind River Reservation in Wyoming received $8.23 million in TIGER funds
for a project called the 17-Mile Road. The 17-Mile Road was a
treacherous and dangerous series of curves. TIGER funds were used to
complete reconstruction of this facility and address serious safety
concerns. The grant provided incentives to enable contractors to employ
over 130 Native workers from the reservation. This project was
completed ahead of schedule and under budget through collaborative
agreements between the Wind River Indian Reservation, the Wyoming
Department of Transportation, and FHWA's Central Federal Lands Highway
Division.
    Another example of TIGER funds impacting tribal infrastructure can
be seen in the Alaska Native Village of St. Michael, which received a
$1 million grant to carry out roadway improvements within the village.
The $10.5 million total project provided reconstruction of 4.39 miles
of the streets/boardwalks within the tribal village, improved drainage,
and construction of new street access to future housing sites. The
project also addressed health and safety issues by providing a dust
free surface on the village streets. The project was completed in
September 2013.
    The call for 2014 TIGER Discretionary Grants is currently underway.
As in previous years, DOT will be conducting Tribe-specific webinars
during the application process to provide technical assistance to those
Tribes that plan to submit applications.
The Every Day Counts Initiative
    FHWA's Every Day Counts (EDC) initiative encourages the use of
technology and innovation to significantly reduce the time and costs of
delivering projects. For Tribes, we promote this initiative through our
Tribal Transportation Assistance Program (TTAP) Centers by providing
information to Tribes and assisting them in carrying out their
projects.
    For example, the Gila River Indian Community, located just south of
Phoenix, Arizona, is in the process of replacing a bridge over the Gila
River that serves as a major thoroughfare for tribal members and
commercial traffic. This project will utilize two EDC initiatives:
Construction Manager/General Contractor and prefabricated bridge
elements. By combining these initiatives with FHWA's accelerated bridge
construction toolkit, it is expected that the new bridge will be
constructed in less than half the time of traditional construction
methods, thereby saving significant costs and providing the Tribe with
a faster resolution to safety issues and increased opportunities for
economic development.
Education and Training
    FHWA also supports tribal workforce development through funding
provided to the TTAP Centers. The purpose of our TTAP centers is to
foster a safe, efficient, and environmentally-sound surface
transportation system by improving the skills and increasing the
knowledge of tribal transportation managers. They provide access to
information, training, and program management enhancements that may not
have otherwise been accessible to Tribes. For example, they provide a
variety of training and professional development programs, as well as
technical publications and training materials related to transportation
planning, safety, the environment, infrastructure design, construction
and management, and other issues. The centers are a key resource for
basic services and help many Tribes become self-sufficient as sovereign
nations in transportation delivery.
FY 2015 Budget Request
    Building on the reforms begun through MAP-21, President Obama
recently proposed a budget for the next fiscal year and laid out his
vision for a four-year surface transportation authorization to spur
further economic growth and sound multi-year investments. The budget
requests $507 million for the TTP in FY 2015 (up from the current $450
million).
    The budget requests an increase for two set-asides within the TTP.
The first is an increase of the tribal planning set-aside from 2
percent to 3 percent to address additional data collection requirements
of performance-based management. The second is an increase of the
tribal bridge set-aside from 2 percent to 4 percent from current levels
to address the growing backlog of tribal bridge needs.
    The budget also requests funding to establish a Tribal High
Priority Projects Program through a 7 percent set-aside from the TTP.
This program will provide a dedicated funding source to help smaller
Tribes by allowing them to apply for funds to help address high-
priority transportation concerns within their community, which they
cannot address through their regular TTP funding.
    The budget also includes a request to establish a Nationally
Significant Federal Lands and Tribal Projects Program. This program is
proposed at $150 million annually, and is intended for rehabilitation,
construction, or reconstruction of large, nationally-significant
transportation infrastructure within or providing access to Federal or
Tribal lands. Such large projects generally cannot be advanced within
the scope of the existing tribal share distribution of the TTP.
CONCLUSION
    Transportation infrastructure is a critical tool for Tribes to
improve the quality of life in their communities by providing safe
access to jobs, hospitals, and schools. The challenges are to maintain
and improve transportation systems serving Indian lands and Alaska
Native villages in order to provide safe and efficient transportation,
while at the same time protecting environmentally sensitive lands and
cultural resources. The Department is committed to improving
transportation access to and through tribal lands through stewardship
of the Federal Lands and Federal-aid programs.
    Thank you again for this opportunity to testify. I will be pleased
to answer any questions you may have.

    The Chairman. I want to thank both of you for your
testimony. I guess we will start out with a question to both of
you. Mr. Black, you can kick it over to Mr. Sparrow if he is
the right person to answer and back and forth.
    In your testimony, Mr. Sparrow, you talked about Secretary
Fox's announcement of $8.6 million going to 183 tribes. Is that
over and above the 6 percent set-aside now, which is about $27
million? So is that $8.6 million in addition to the $27
million?
    Mr. Sparrow. No, Senator. The $8.6 million is actually part
of the 2 percent set-aside for safety that comes out of the
Tribal Transportation Program.
    The Chairman. So let me understand this. There is 6 percent
set-aside from the overall money, the $450 million which
amounts to about $27 million. And if I am wrong on this or if I
am close, let me know. And then there is 2 percent of that $27
million that is set aside for safety.
    Mr. Sparrow. No, sir. There is actually four set-asides off
the program of the $450 million.
    The Chairman. Okay.
    Mr. Sparrow. Two percent is for safety, which translates
then to about $9 million authorized. And that is money that the
tribes can apply for directly through the program and directly
through Federal Highway as opposed to Highway Safety
Improvement Programs through the States. And we had a call for
projects this last summer and went through the evaluation
process and made those announcements and got them together for
Secretary Fox.
    The emphasis this first go-around was to assist the tribes
in developing tribal safety plans, identifying what the needs
are. You also have a 2 percent set-aside now that Director
Black spoke about for bridges. It used to be a stand-alone
program. It is now 2 percent, again, 2 percent of the $450
million.
    You have 2 percent set aside for transportation planning
purposes. Again, for carrying out planning activities,
collecting data. And then the other set-aside is the 6 percent,
which is the set-aside called program management and oversight
which are the funds that BIA and Federal Highway use for
stewardship and oversight and staffing of the program.
    The Chairman. So of the $450 million, there is about 12
percent that is set aside for tribes, 2, 2, 2, 6?
    Mr. Sparrow. Well, 6 is for BIA and Federal Highway to
carry out stewardship and oversight of the program. Off the 450
is 2 for planning, 2 for bridges, 2 for safety.
    The Chairman. And those are all dedicated to Indian tribes?
    Mr. Sparrow. Yes, sir.
    The Chairman. Okay. And the 6 percent which is the program
management part, just to help me understand it, that goes
actually for building roads, then, right?
    Mr. Black. No, the 6 percent, sir, is for the general
oversight and administration of federally inherent
responsibilities, Federal Highway and BIA to administer the
program and provide services.
    The Chairman. Okay. That is cool. So where does the money
come from for building the roads? Where does it come from for
building roads? Or is any of this money meant for building
roads or rehabbing roads?
    Mr. Black. Approximately, and Mr. Sparrow can probably
answer more accurately than I can, but approximately $350
million of the total $450 million, I believe it is.
Approximately $350 million to $380 million of the total $450
million goes directly to the tribes for construction,
reconstruction and rehabilitation of the roads.
    The Chairman. That is good. And so how many miles of road
were built last year with that $380 million?
    Mr. Black. I don't have that figure with me, I am sorry. I
can get that back to you.
    The Chairman. If you could get the figure on how many miles
of road were built, how many miles of road were rehabbed.
Actually, go right down the line, the $9 million that was spent
for safety, how was it utilized? Who got the money? Did the
tribes get it? How much went to administrative costs?
    Here is the point. Quite frankly, we have had these
conversations with FEMA, dollars going through the State or
with highway dollars, potentially going through BIA, quite
frankly. And that is that if we are going to get money on the
ground, if we are going to have self-determination and
empowerment of tribes, there have to be rules around it,
whether it is done through whatever metrics are done, but
ultimately what I am going to be looking for is how much of
this is being used for administration and how much is actually
used for laying pavement down and improving safety and
improving roads and improving bridges and going right down the
line. So that is what we are looking at.
    I don't say that that anybody is doing anything wrong, or
has done anything wrong. I just want to find out what is going
on, that is all. Because quite frankly, as I said in my opening
remarks, I travel on a lot of Native American roads in the
State of Montana, because I travel the State a lot. And they
are pretty sub-par. In fact, they are pretty bad.
    I can give you an example. Heading over about a month and a
half ago, over the divide going through Blackfeet, the only
road that was not plowed of snow was the road that went through
the reservation. The rest of it was all plowed. And it was
pretty obvious that there is a difference in management here. I
don't know if it is the tribe's fault, I don't know if it is
the BIA's fault, I don' know if it is the State of Montana's
fault, I don't know if it is the Federal Department of
Highway's fault. But something is not being done that should be
done. That is all. And it creates some real safety problems.
    Vice Chair Barrasso is here. Vice Chair Barrasso, if you
have opening remarks, you can certainly make them, or
questions, then we will go over to Senator Heitkamp.

               STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I
appreciate your holding this important hearing today. Before we
get started, I do want to take a second to welcome Wes Martel
and John Smith from the Wind River Reservation in Wyoming.
Thank you very much for being here and sharing your thoughts
and your ideas. I am looking forward to your testimony.
    Both of you gentlemen work very hard to make the Wind River
Reservation a safer place to live through the Tribal
Transportation Program. So thank you.
    I do have a couple of questions, Mr. Chairman, one for Mr.
Black, if I could. According to information from the Federal
Lands Highway Administration, there are about 25 percent of the
Tribal Transportation Program bridges which are considered
deficient. On the Wind River Reservation, I think about 19 of
the 122 bridges are deficient. They are required by law to be
inspected by the Bureau of Indian Affairs every two years.
    Could you give us an update on the status of the most
recent inspections?
    Mr. Black. I apologize, Senator, I don't have those exact
numbers with me. But I can sure provide them to you.
    Senator Barrasso. We would appreciate that, if you could
get that back to us at the first available, convenient time.
Thank you.
    Mr. Sparrow, or both witnesses, actually, on October 30,
2013, the Office of the Inspector General released a report on
the Federal Highway Administration's oversight of the Tribal
Transportation Program. The report noted inefficiencies and
duplication between the Department of Interior and the
Department of Transportation.
    For example, the Inspector General found an inconsistent
environmental review process under NEPA, the National
Environmental Policy Act, implemented by the departments. Can
you tell me what the agencies, both your agencies, are doing to
address the findings of this report, including reconciling this
environmental review process?
    Mr. Sparrow. Thank you, Senator, I will be glad to answer.
The Office of the Inspector General report found seven
recommendations for improvement of coordination between the
Bureau of Indian Affairs and Federal Highway in carrying out
the Tribal Transportation Program. One that speaks directly to
your immediate issue was updating the memorandum of agreement
and our stewardship plan to help deliver a more unified and
consistent program across the Country.
    Federal Highway and BIA are working closely together and
developing what we are calling a national business plan which
will replace those two documents. That business plan will
identify the roles and responsibilities of both agencies on
carrying out the program so that we can more consistently do
that regardless of the tribal size or tribal location.
    That is well underway. And we plan, or are hoping to have
that fully in place by the end of this year.
    Senator Barrasso. Mr. Black, any additional comments?
    Mr. Black. No, Senator, I don't have anything to add to
that, other than the fact that we have developed over the time
we have been working with Federal Highway a very good
relationship. This is a great opportunity for us to be able to
continue that and develop a more uniform program.
    Senator Barrasso. [Presiding.] Thank you.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP,
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thanks to the Chairman and the Ranking
Member. A lot of times, this kind of infrastructure doesn't get
a lot of attention until you are at the end of the line and our
road isn't plowed and your kids can't get to school. And you
see the traffic fatalities, the increased traffic fatalities. I
think it is a result of some pretty challenging conditions on
all of my reservations, but particularly up at the Mandan,
Hidatsa, and Arikira Nation, where they are experiencing a huge
growth in employment and activity, and the roads are pitiful.
They are horrible.
    And so I just have a couple questions, but Mr. Chairman, I
would like to submit additional questions for the record, if
that is agreeable.
    The Tribal High Priorities Project Program, I think it was
provided about $30 million each year from the general fund, is
used to target the most pressing transportation issues in
Indian Country. Obviously we think that there are some extreme
needs in Fort Berthold, which is Mandan, Hidatsa, and Arikira.
If you don't believe me, you might want to talk to Ken Hall,
who is here from the tribal council, watching these
proceedings.
    Can you tell me, and Fort Berthold has some unique
challenges, because not only do we have this incredible growth
as a result of the Bakken, we had major flooding in 2011, which
literally made the reservation a transportation island. Can you
tell me about the criteria for this high priority program and
whether any of the situations, especially in Mandan, Hidatsa,
and Arikira Nation, have an opportunity to qualify for that
program? Mr. Black?
    Mr. Black. I will go first, then Mr. Sparrow can add to
this. I have had the experience of traveling those roads in
Fort Berthold a number of times personally. I can share the
pain, I know exactly what the conditions are.
    There are so many different challenges in meeting that. But
to address the high priority program that you are talking
about, under the previous transportation act, we did have a
high priority program project identified in there, and it was a
2 percent set-aside, I believe.
    Mr. Sparrow. It turned out to be a little bit more than
that.
    Mr. Black. A little bit more than that. Now, under MAP-21
it was authorized but it was never funded. So there is no
program under MAP-21 currently for the high priority projects.
So under the proposal there is going to be hopefully a funding
mechanism under the new transportation act that we can address
those concerns.
    Senator Heitkamp. And it would be very much appreciated to
have clear and concise standards, so that we know when we are
applying for those priority dollars that we have an opportunity
to be successful.
    Mr. Sparrow, I have a quick question for you. Under MAP-21,
the Tribal Transportation Program is provided about $450
million in fiscal years 2014 and 2013. Under the allocations
provided by the Highway Trust Fund, this amount accounts for
slightly greater than 1 percent, 1 percent of overall highway
funding.
    Given the great need in Indian Country to improve the
quality of roads and the continuing pressure to maintain and
improve transportation infrastructure, do you think that is an
adequate or appropriate amount of money from the highway funds,
and what steps should we take to improve access to those
dollars?
    Mr. Sparrow. Senator, thank you for the question. The
Administration has recognized the importance of the program.
And in the fiscal year 2015 budget that President Obama
submitted, it did propose an increase in the program from $450
million to $507 million.
    Senator Heitkamp. That is one mile of road in North Dakota
these days.
    Mr. Sparrow. But beyond that, the Administration will be
submitting reauthorization language and proposal beyond fiscal
year 2015 budget in the coming months. At that time, working
with Congress to answer the question.
    Senator Heitkamp. I just want to make the point, and I
don't mean to point fingers, but I was talking to the chairman
up at Spirit Lake. These issues came up. To the chairman's
observation, you would drive down a township road and all of a
sudden the road wasn't plowed, and the road wasn't plowed
because the township supervisors decided those were, the people
on the other end of that road were Native American people and
that must be the responsibility of the tribes.
    So we know we need to do a better job coordinating with
State and local, county, and township authorities, especially
when we have reservations with a lot of in-holdings and a lot
of not understanding. But we also need the Federal Government
to step up and to make a commitment, particularly in Indian
Country, which is, I think, a primary responsibility. Many of
these tribes cannot afford to provide that quality
transportation. And as a result what happens is kids don't get
to school and mail doesn't get delivered and people can't get
groceries and people get more and more isolated and law
enforcement can't attend to their business.
    So not having these conduits has real consequences in
Indian Country. I would just impress upon you and the
Administration that this is the primary responsibility and we
need to figure out how we are going to expand capacity.
    The Chairman. [Presiding.] Thank you, Senator Heitkamp.
    I was going to save this until the end, but I think I will
say it now. I think folks in the agencies, whether it is BIA or
Department of Transportation, need to look upon this Committee
as the Committee that can help empower you to do your job. And
if we know the issues that are out there and you can tell us
where the gaps are or where money is being spent that may be
better spent somewhere else, I think we can certainly help with
your effectiveness and government efficiency in general. I
think that is whether it is on the Republican side of the aisle
or the Democratic side of the aisle, whether it is the ranking
member, me or anybody else on this Committee, I think we all
want to see things work.
    In your testimony, Mr. Black, you state that there is
deferred maintenance needed, about $280 million, which is
probably about the way it is just about everywhere. Yet your
budget request annually is between $20 million and $25 million
in the maintenance issue. That barely keeps up with inflation,
much less takes care of the problem. Could you address that?
    Mr. Black. I would be happy to, sir. Without trying to get
up on my soap box here, just for information purposes, I did
serve as a regional road engineer for the Rocky Mountain region
for a couple of years as well. So I am pretty well experienced
in the issues in Montana as well as South Dakota and other
areas of the Country.
    The road maintenance budget has been something that has
basically remained steady for almost 20 years, up around $20
million and $25 million a year. We have deferred maintenance of
approximately $280 million. Yet as you and the folks from the
Plains areas and the Dakotas know well, this is also used to
remove snow and ice. So by the time we get to March and April,
oftentimes the tribes' road maintenance budgets are expended
and we cannot even begin to address the $280 million.
    Now, there are provisions in the Transportation Act that
allow tribes to use up to 25 percent of their highway
construction dollars and apply those toward maintenance. But
there again, that is kind of a catch-22, because you can run
into the situation where we are taking way from that need for
construction and applying that to the serious need for
maintenance.
    So it is a challenge we have been facing for many years.
    The Chairman. So here is the question that leads on to that
question, and you did good. The question is, you know the
issues and you know the challenges and you know how the money
is spent. Who is advocating to get that number up so it is a
more reasonable figure? This is the President's budget numbers.
    Mr. Black. Well, the Department is advocating for it, but
there again, we are always competing against other interests.
With the road maintenance program, we do work with the tribes
in setting priorities for the budget. There again, tribes have
priorities and we are working with them to try and understand
the issues that are out there, make sure everybody is on board
as to what is most important in Indian Country at this time.
    The Chairman. Okay. So tell me how this works. You have a
line item in your budget that has been static for 20 years, you
understand that it is used for removal of snow, and by the time
they get done removing snow there is not a heck of a lot left
for maintenance. You know that there is $280 million
maintenance problem out there, deferred maintenance problem out
there. Is it you that advocates for the budget increase or is
it somebody else?
    Mr. Black. I definitely advocate for it. But then again it
is a matter of working within the budgets that we have and also
looking at other opportunities. North Dakota is a good example,
where in some instances we are working with the companies that
are out there doing development in order to provide additional
funds. Working with the State and county. Because a lot of
times, when you are talking road maintenance issues, a lot of
the roads and stuff that serve our reservations are State and
county roads. So it is a matter of working with them as well to
ensure that we have proper maintenance for the roads that we
have.
    The Chairman. Okay. Well, I would just say that I think
this is, I don't think there is anybody out there that thinks
from 1994 we can do the same amount with the same amount of
dollars we have now to get the job done. I would hope that
there is a lot of fist-pounding on the table by you to make
sure that these budget numbers are up. Because quite frankly,
we are going to have to look at some way to bump these numbers
up, that is pretty obvious to me, if we are going to address
the needs that are out there. Or the infrastructure will go to
pot, because if it isn't maintained, it deteriorates pretty
fast. You know that.
    I want to talk just a little bit with you, Mr. Black, about
the administrative costs. There is about $27 million of that
$450 million that is used for admin costs. That is 6 percent,
which is what the law allows. How do you determine, do you just
take the 6 percent as a matter of fact, since it is allowed by
the law? Or is there a reason, is there justification for that
$27 million? Now I am going on the other side of the equation,
and that is that, do we really need the money that is there?
    Mr. Black. Sir, I would say yes, we do. And I can provide
you better justification.
    The Chairman. Let me ask you this, let's say we bump that.
Let's say we bump that program up to $600 million. Would you
still need the 6 percent?
    Mr. Black. I think that would take some evaluation. But
there again, if we bump it up to $600 million, depending upon
what the scope of that is, what programs could get added here,
what the implementation of this new safety program, the 2
percent set-aside under MAP-21, that does create certain
additional workloads for our staff out there. The inventory
management, bridge inspections under MAP-21 did require that we
also, in addition to inspecting all of the BIA-owned bridges,
we inspect all of the tribally-owned bridges, which added about
220 bridges to the inventory that we have to inspect
biannually.
    So a lot of those costs need to get covered out of that 6
percent.
    The Chairman. Just for our information, do you have an
inventory of the bridges in Indian Country and what condition
they are in?
    Mr. Black. Yes, sir.
    The Chairman. And those are redone how often?
    Mr. Black. Biannually, ever two years we are required to
inspect them.
    The Chairman. Can you give me any idea on what percentage
of the bridges are ready to fall down?
    Mr. Black. I have something here somewhere. I can provide
it back to you, without sitting here wasting time looking
through my paperwork.

    The Chairman. I have run out my clock. We can get back on
that. Senator Heitkamp?
    Senator Heitkamp. Not to belabor the Chairman's point, but
who do we need to talk to? I know you understand the problems,
you actually have been out there on the roads. But we
constantly have members from the Administration come in and
talk about the needs and talk about under-serving, and
acknowledge the problems. But yet, when they see the budget
request, anyone would say, this is an Administration that is
satisfied with the numbers that are going into Indian health,
satisfied with the numbers that are going into transportation,
satisfied with the numbers that are going into Indian housing,
because there isn't any increased request. And that is
enormously frustrating, because I think that it hides the
magnitude of the problems.
    So I guess my question is, I have no doubt that within your
sphere, you are fighting for every dollar that you get and you
have to be the good soldier and come down here and support what
the Administration requests. But we need to have an
understanding that we need to know what the actual needs are.
When we hear the problems and then we see the budget, there is
a complete disconnect between that understanding of the
magnitude of the problems and the willingness to step up and
take responsibility to help solve them and look creatively at
very many kinds of strategies that could make a difference,
whether it is mandating, well, I shouldn't say mandating, but
having a dialogue with governors and highway commissioners
about how we are going to treat this properties. You have a
great relationship with governors and your highway
commissioners, DOT does. So how do we get this done?
    I guess the one message I would like you to take back is,
look, we aren't going to be satisfied with a discussion about
the great needs and then look at the commitment in dollars in
budgets. Let us say no, but be honest about what you need in
order to provide just basic human conditions. And that includes
transportation.
    The Chairman. We will help you. It is all good.
    Mr. Black. I understand. I would be happy to work with you.
    Senator Heitkamp. I think he gets it.
    The Chairman. Yes, we have had the conversation with IHS in
particular, and that is that if we don't have folks that are
pounding on the table saying, we have to have these dollars,
how can things change. Because it hasn't been a very effective
program. And I think, by the way, if that is done more then the
BIA comes up in stature as far as your effectiveness, which I
think is something I look forward to. It is good, because there
are good people in the Department. You are one of them. So
thank you.
    Mr. Sparrow, I do not want to let you get off scot-free
here. The Department of Transportation Inspector General report
issued in October cites inconsistencies and often ineffective
communication by the BIA and the Federal Land Highways hampered
partly by an outdated MOA and stewardship plan. In the Federal
Land Highway official response to the IG audit, Administrator
and Acting Secretary Mendez stated that a jointly-developed
national business plan replacing the stewardship plan will be
completed by April 2014. If my math is right, that is next
month. How is that coming along?
    Mr. Sparrow. Senator, it is coming along very well.
Actually, right after the OIG made their presentation, and
actually before that, BIA and Federal Highway officials got
together and, recognizing this fact, have put teams together to
develop what we are calling this national business plan, which
will identify the roles and responsibilities and basically can
help us more consistently deliver the program across the
Country.
    Those teams have been working hard since late summer of
last year, and the draft is actually due very soon to my
office. We look forward to getting that completed and actually
finalized through the process before the end of the year.
    The Chairman. So is it coming out next month?
    Mr. Sparrow. The draft is coming to me next month.
    The Chairman. Okay. So it will be for public consumption by
the end of the year?
    Mr. Sparrow. Yes, sir.
    The Chairman. Is that okay?
    Mr. Sparrow. It is quite complicated, with everything that
we are trying to do. The main focus here is that we are working
closely with the BIA to make sure that we get that consistency
into the delivery of the program, and do the process right.
    The Chairman. I appreciate that, although I would tell you
that if folks put up goals, missing it by eight months, that is
not particularly good in my book.
    Mr. Sparrow. Yes, sir.
    The Chairman. The bottom line, Mr. Sparrow, I go to bat for
government workers every day, because I think you do a hell of
a job. I do. But by the same token, there has got to be
accountability too.
    So motor crashes are the leading cause of death among
Native Americans. The figures are sometimes two to three times
above the national average. Seat belt use among Native
Americans who are involved in highway fatalities, as you can
guess, is far below national average. Behavioral issues, unsafe
roads contribute to unacceptable highway facilities among
Native Americans. These are just facts.
    Is there anything else the Federal Government can do, Mr.
Sparrow, to help tribes make reservations and Native American
communities safer?
    Mr. Sparrow. Senator, we have been conducting some tribal
safety seminars across the Country to try to get the education
out to the tribes. The 2 percent safety set-aside off the
Tribal Transportation Program itself that Secretary Fox made
the announcements last November is helping a significant number
of tribes develop these tribal safety plans which will identify
the needs in Indian Country.
    Most importantly, that safety plan also will help them to
gather data which makes them eligible then for other programs
and working with the State, with the Highway Safety Improvement
Program, which is State-controlled, but that is data-driven. So
helping the tribes gather the data and develop these plans
ultimately will help them become eligible for applying for
other safety programs to address this need.
    The Chairman. Thank you.
    Senator Heitkamp, did you have any further questions?
    Senator Heitkamp. No, thank you, Mr. Chairman.
    The Chairman. I will submit some further questions for the
record. I appreciate your testimony today. I appreciate your
straight answers, straight up. I appreciate that a lot. And I
want to thank you for being here and thank you for the jobs you
do. They are very important to Indian Country, make no mistake
about that. And very important to the Country as a whole.
    So thank you very much. We will bring the next panel up. I
want to welcome our second panel as we convert from panel one
to panel two. We have three witnesses on our second panel. As I
mentioned earlier, we are joined by the Honorable Dana Buckles,
who is a Tribal Executive Board Member for the Assiniboine and
Sioux Tribes of the Fort Peck Reservation. He also serves as
vice chairman of the tribe's health and human services
committee, and their law and justice committee.
    Then we will hear from Wes Martel, a member of the Joint
Business Council of the Eastern Shoshone and Northern Arapahoe
Tribes of the Wind River Indian Reservation in Fort Washakie,
Wyoming. He is accompanied by Mr. John Smith, who is the
Director of Transportation, Department of the Wind River
Reservation.
    And finally, we are joined by the Honorable Edward Thomas,
the President of the Central Council of the Tlingit and Haida
Indian Tribes of Alaska, from Juneau, Alaska. President Thomas
is responsible for overall administration of all operations of
the tribes, representing more than 28,000 worldwide. I want to
acknowledge that President Thomas is retiring next month, after
almost 30 years of service to your people. I thank you for your
service to your people and to all of Indian Country.
    Councilman Buckles, we will begin with you testimony. As
with the previous panel, and with all panels, your entire
written testimony will be a part of the record. If you can keep
your comments to five minutes, it would be much appreciated. Go
ahead.

STATEMENT OF HON. DANA BUCKLES, TRIBAL EXECUTIVE BOARD MEMBER,
   ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION

    Mr. Buckles. Good morning, Chairman Tester, Vice Chairman
Barrasso and members of the Committee. My name is Dana Buckles.
I am a member of the Fort Peck Tribal Executive Board.
    I am pleased to present testimony today on behalf of the
Assiniboine and Sioux Tribes concerning tribal transportation.
Chairman Stafne and the Executive Board send you their warm
greetings.
    As I noted in my written testimony, my background is in
health, so I want to discuss tribal transportation from that
perspective. As a critical Federal investment, not only in our
reservation infrastructure, but also in an investment in Native
people, a well-maintained road in Indian Country is a tangible
expression of our Federal trust responsibility which helps
empower tribal governments to protect Native people.
    I want to offer a few reasons why increasing appropriations
for Federal transportation programs for Indian tribes is so
important. First, motor vehicle crashes are the leading cause
of death among Native Americans ages 1 to 34 and third leading
cause of death overall. Over the last 15 years, nine of our
members lost their lives and 43 were injured in 33 separate
motor vehicle crashes on BIA Route 1 and the road below Highway
2 that goes from the Big Muddy in the eastern portion of the
reservation to Wyota on the western edge of our reservation.
    The Montana Department of Transportation found that the
Native American fatalities in motor vehicle crashes are two to
three times what they should be, based on our population.
    Poorly maintained roads, roads that were not built to
modern design standards, are not safe roads. Most Indian roads
are rural roads. All these factors combine together with
behavioral issues such as no seat belt use and drinking and
driving to make tribal roads unsafe. Only sustained Federal and
tribal involvement can alter this condition.
    I am pleased to inform you that the Fort Peck has secured
$13,000 in highway safety grants, which we will spend this year
to make improvements in our route from Box Elder to Blair, to
the intersection at U.S. 2 and the Poplar Road and to restrict
26 miles of BIA routes on the reservation, making a public
service announcement about highway safety and updating our
highway safety plan.
    If the Federal Government can set transportation
infrastructure and highway safety goals in our next highway
bill and reduce Native American fatalities and serious injuries
from motor vehicle crashes, tribes will have more IHS and
tribal dollars to engage in preventive health care, which in
turn will keep our communities healthier. That would be a big
dividend for Indian Country.
    Second, at its core, the Tribal Transportation Program,
MAP-21, is a jobs bill. It puts our members to work at the
local level. There is great pride in having a job and bringing
home a paycheck. A family of a wage earner promotes healthier
Native families because they put healthy food on the table and
maintain a stable home. With our tribal share of our Federal
transportation dollars, we hire close to three dozen
individuals to build our roads in the seven month construction
season.
    Wage earner also put money into our reservation economy:
shopping for groceries, buying gas and clothes, frequenting our
businesses, which grows jobs on our reservation. They pass on
good work habits to the next generation. This is how to promote
stable communities.
    Third, a predictable, long-term increasing tribal
transportation and tribal transit program communicates to
outsiders that the Fort Peck Reservation is open for business.
It gives us the resources we need to reconstruct and maintain
existing routes and plan and build new routes. The Fort Peck
tribes are very concerned about the inadequate state of our
road infrastructure, especially in light of the explosive
growth we see at the Bakken and Three Forks oil formations. Our
2.1 million acre reservation lies within the western part of
the Williston Basin. We are too familiar with the impacts being
experienced by the Fort Berthold Reservation in North Dakota:
paved roads turn into gravel, unsafe truckers driving too fast,
illegal dumping leads to increased motor vehicle crashes and
increased fatalities among tribal members.
    Chairman Tester, the Fort Peck Tribes support the efforts
of the Tribal Transportation Unity Caucus in seeking
comprehensive consensus changes to our Tribal Transportation
Program. But we want to be clear, we support existing funding
for the program and we support the consensus changes as a
package. So Fort Peck tribes urge the Committee to champion
investment in Native communities through increases of our
Tribal Transportation to $800 million as well as increases for
the tribal transit and safety programs.
    Since fiscal year 2009, the funding has not increased for
the Tribal Transportation Program. In fact, it went down.
    I urge the Committee to share a draft Tribal Transportation
bill with the Senate committees of jurisdiction and urge them
wisely to invest in Indian Country and help strengthen tribal
governments and our members. Thank you.
    [The prepared statement of Mr. Buckles follows:]

Prepared Statement of Hon. Dana Buckles, Tribal Executive Board Member,
       Assiniboine and Sioux Tribes of the Fort Peck Reservation
I. Introduction
    My name is Dana ``Sam'' Buckles, and I serve as a member of the
Fort Peck Tribal Executive Board, the governing body of the Assiniboine
and Sioux Tribes of the Fort Peck Reservation. Tribal Chairman A.T.
Stafne and my fellow Tribal Executive Board members send their best
wishes and thanks to Chairman Tester and the Senate Indian Affairs
Committee for holding this important oversight hearing on Tribal
Transportation as a pathway to infrastructure and economic development
in Indian Country. Thank you for inviting the Fort Peck Tribes to
testify. I am pleased to be here today to share my testimony.
    The vast majority of my career has been committed to public service
to my Tribal community. Prior to my tenure on the Tribal Executive
Board, I spent over 20 years working in the health and human services
field for the Fort Peck Tribal Health Program. Through that experience
I am keenly aware of the health disparity that exists on the Fort Peck
Reservation--a disparity that extends throughout all of Indian Country.
Nationally, Indians continue to rank at the bottom of every social and
economic indicator regarding rates of diabetes, heart disease and
cancer; infant mortality; life expectancy; chemical dependency;
suicide; unemployment; and income, to name a few. Unfortunately, the
leading cause of death among all Americans, especially Native
Americans, is motor vehicle crashes. As the Montana Department of
Transportation (MDOT) noted in its Comprehensive Highway Safety Plan a
few years ago, motor vehicle crashes disproportionately strike Native
Americans, including our youth, our most precious resource.
    In its 2010 safety plan, MDOT noted that while Native Americans
comprise 6.5 percent of the State's population, we accounted for 14-20
percent of the State's traffic fatalities which are more than two to
three times the rate it should be. From 2005-2009, MDOT estimated that
68 percent of Native American fatalities had behavioral-based causes
and 87 percent of Native American fatalities were not wearing seat
belts. On our reservation, over the last 15 years on BIA Route 1 there
have been nine fatalities and 43 injuries in 33 motor vehicle crashes
involving our members. These are the ``reported'' motor vehicle crashes
in Indian country. Far too many crashes go unreported. Without the
data, we are all blind.
    Sadly, these conditions are a direct result of federal policies
over the last two centuries, and in particular, the federal
government's failure to invest in infrastructure and economic
development in Indian Country. Funding for the Tribal Transportation
Program--$450 million for 566 Federally recognized Indian tribes--has
not increased since FY 2009, and in fact went down under MAP-21 as the
Tribal bridge program was folded into the allocation formula, Congress
terminated the Public Lands Highway Discretionary Grant Program and
elected not to appropriate a single dollar for the Tribal High Priority
Project Program.
    Tribal governments are capable transportation providers when given
the adequate resources. The American Recovery and Reinvestment Act
(ARRA) demonstrated our capacity to quickly utilize transportation
construction and road maintenance funding to address the backlog of
transportation projects. Indian tribes are in the best position, as the
local government, to tackle long-term economic development, public
safety, education, health care and housing needs provided we have basic
infrastructure to support our communities, including safe and modern
designed transportation systems.
    Empowering and strengthening Tribal governments and protecting the
well being of our members fulfill the Federal Government's unique trust
responsibility to the Indian nations. To rectify the economic and
physical barriers that hinder so many aspects of Reservation life, we
urge the Indian Affairs Committee to enact a long-term bill highway
bill that provides financial predictability and certainty which ensures
the Highway Trust Fund (HTF) until a politically viable substitute is
in place and with sufficient funding for Indian tribes based on our
well-documented transportation infrastructure needs. We request that
any such legislation include the following key elements which we
request you support and convey to the Senate committees charged with
drafting the next highway bill:

        1.  Tribal Transportation Program (TTP)--Increase annual
        funding to $800 million in FY 2015 and include stepped
        increases of $50 million per year thereafter;

        2.  Tribal Transit Program--Increase the existing Tribal
        transit formula amount to $35 million for FY 2014 with annual
        increases of $5 million, and increase discretionary funding to
        $10 million in FY 2015 with annual growth of $5 million;

        3.  Tribal Highway Safety Set-Aside--Establish a 2 percent
        direct Tribal funding set-aside from the Highway Safety
        Improvement Program and increase the NHTSA Tribal Safety
        Program set-aside to 3.5 percent to reduce the unacceptably
        high incidence of motor vehicle fatalities among Native
        Americans;

        4.  Obligation Limitation Deduction--Restore the exemption that
        once existed for the Obligation Limitation deduction that
        removes tens of millions of dollars from the TTP;

        5.  Federal-Aid Program--Ease the transfer of Federal-Aid funds
        from State Departments of Transportation (State DOTs) to Tribes
        by allowing BIA or the FHWA to award State-administered
        federal-aid funds to tribes under existing federal agreements;

        6.  Tribal Eligibility for All Federal Grants--Ensure Tribal
        eligibility as a direct recipient for all U.S. Department of
        Transportation discretionary and competitive grants. 7. ERFO--
        Improve the speed and efficiency of getting ERFO funds to
        tribal governments for emergency use;

        8.  Tribal Asset Management Program--Establish a tribal Asset
        Management Program at $50 million in FY 2015 with annual
        increases of $5 million for BIA and Tribally-owned
        transportation facilities;

        9.  Unused Obligation Authority--Redistribute 10 percent of
        unused obligation authority for the TTP to fund competitive
        grants to remotely located tribes and restore HTF allocations
        for the Tribal High Priority Project Program; and

        10.  BIA Right-of-Way Management--Direct the BIA to update and
        computerize rights-of- way documentation, support tribal
        ``corridor management'' practices and authorize $10 million to
        cover implementation and any trespass damages for unrecorded or
        improperly recorded BIA rights-of-way over Indian lands.

II. The Opportunities and Challenges of Economic Development on the
        Fort Peck Resevation
A. Safety Concerns
    The Fort Peck Reservation encompasses 2.1 million acres--over two
thousand square miles--in remote northeastern Montana. The Assiniboine
and Sioux Tribes and individual Indian allottees own about 1 million
acres of land on the Reservation. Nearly 10,000 residents live on the
Reservation with roughly two-thirds of them Tribal members and non-
member Indians.
    The Tribes are responsible for the repair and reconstruction of
nearly 400 miles of BIA system and Tribally-owned transportation
facilities on the Reservation. Governments that have a taxable base
have the resources to properly maintain and reconstruct transportation
facilities. We do not have these resources. Our transportation
infrastructure badly shows its age and what we do reconstruct we must
replace far sooner than if we had the resources, equipment and labor to
properly and routinely maintain it.
    Our existing formula allocation does not permit us to plan, design
and build new routes that must be built and maintain our existing
inventory of transportation facilities. While the prospect of economic
development from the Bakken and Three Forks oil formations is exciting,
our infrastructure is woefully unprepared and we are concerned about
safety.
    The Fort Peck Reservation lies within the western part of the
Williston Basin, which includes many oil producing formations,
including the Bakken and Three Forks. As you know the horizontal
drilling techniques and hydraulic fracture stimulation or more commonly
``fracking,'' have brought about unprecedented oil development in the
Bakken and Three Forks immediately adjacent to our Reservation in
western North Dakota and eastern Montana. As the closest neighbors to
this development, our substandard infrastructure--particularly our
roads--has come under significant stress, without any accompanying
income from development.
    Rail, truck and motor vehicle traffic has increased across the
Reservation at alarming rates moving oil, people, development related
products such as frac sand and pipe, in and out of the Bakken. However,
the Reservation road system was not designed to handle the heavy
traffic that is now the norm. Other than U.S. Highway No. 2, a federal-
aid highway that runs along the southern boundary of the Reservation,
the roads on our Reservation were built to accommodate passenger and
agriculture transportation. These roads were meant for two-ton grain
trucks and school buses. They were not designed to handle tractor-
trailer combinations.
B. Inadequate Road Maintenance Funding Undermines Tribal Growth
    U.S. Highway No. 2 has served as the primary artery for travel
between all of the major Reservation communities. However, as most
direct route to the Bakken from the west, Highway 2 is now congested
and dangerous even as it passes through our Reservation, one of the
most sparsely populated regions of the country. This phenomenon has
introduced yet another serious health and safety concern to our
Reservation community. Moreover, the on-going need for maintenance on
Highway 2 has forced traffic onto Tribal roadway and transit systems.
If all of our $533,138 allocated by the BIA for Road Maintenance were
put to our inventory of roads, it would total less than $1,350 per road
mile. With staff, equipment, sand, salt and gasoline, it is well below
that level. Even with our ``repurposing'' Tribal Transportation Program
(TTP) construction dollars for road maintenance needs, as is permitted
under MAP-21, we do not have the resources to properly maintain our
routes. If routes are not routinely maintained in Montana, they
deteriorate far faster than would otherwise be the case.
    Our biggest maintenance expense is snow removal which occupies us
from November through March. Road maintenance is an essential public
safety service, especially in rural, remote Indian reservations where
first responders and trauma centers are few and far between. If our
roads are not well maintained, they contribute to the high incidence of
motor vehicle crashes, fatalities and serious injuries among our
members and other Reservation residents. This taxes our IHS funds to
treat victims of motor vehicle crashes, both short-term and long-term
health care needs.
    Over the years many groups have advocated for the enhancement of
Highway 2 across the northern plains as popularized by the 4 for 2
campaign. While we continue to support those efforts, we recognize that
even if conditions existed to fund such a significant project it would
not alleviate the current problems for many years.
    The BIA Road Maintenance Program, funded at about $25 million for
roughly 30 years, is the leaky bucket which undermines every national
and tribal goal for Indian country. Without routine road maintenance,
our routes deteriorate far sooner than would otherwise be the case.
Poorly maintained routes undermine our efforts to improve economic
development, public safety, health care, and education. We encourage
the Committee to urge the Interior Department and the Office of
Management and Budget to support an annual budget of $150 million for
the BIA Road Maintenance Program to protect the public as well as the
public's investment in transportation infrastructure.
III. Addressing Crumbling Infrastructure and Struggling Economy Through
        Tribal Transporation
    First, the statutory formula for allocating money to the Tribes
through Map-21 as introduced by Senator Baucus and his co-sponsors
should be included in any re-authorization of a new Highway Bill. While
it is difficult to arrive at a funding formula that provides fairness
across the diversity of Indian Country, we believe this proposed
formula adequately protects large, rural tribes like Fort Peck, while
considering the needs of smaller tribes as well.
    Second, we join our partners in Tribal Transportation Unity Caucus
and the Rocky Mountain Transportation Planners Association in urging
Congress to enact a new surface transportation bill--the Tribal
Transportation Unity Act--to address tribal transportation system
needs. The proposed legislation, a summary of which we included above,
recognizes the capacity of Tribal Nations to deliver transportation
services to Tribal membership and the public. While we support the
Tribal Transportation Unity Act as developed and agreed upon last month
in Denver, Colorado, our support for a guaranteed minimum funding
amount of $75,000 for small Indian tribes is expressly conditioned on
the TTP Program growing sufficiently to ensure that such minimum
funding level is not at the expense of large land-based tribes such as
the Fort Peck Tribes. In our view, the TTP formula funding levels must
be determined by considering roads, land and population. We endorse the
entire package and therefore increased funding levels.
    With the Tribal shares of TTP funding we receive, we hire
approximately 27-30 individuals each construction season for roughly
seven months. This employs members locally, who can support their
families and contribute to the local economy.
    With our construction dollars, we have successfully completed North
Park Road, a 3.2 mile reconstruction project, replacing three large
culverts, gravel, paving and chip sealing. We completed 8.4 miles of
overlay-chip seal on various routes on the Reservation. We completed
South Wolf Point Street, a 4 mile project of milling, leveling and
overlay and we began construction of the Veterans Memorial with Montana
Community Transportation Enhancement Program (CTEP) funds. We also
started construction on the Detention Center Parking lot and George
Washington Roads project. These projects will be paved this calendar
year.
    In 2014, we are also undertaking the phased construction of the 30
mile Wolf Point--Wiota project over three years. The first phase of the
project will replace two metal culverts with two box culverts and mill
overlay. In addition, we are undertaking a bike path/pedestrian walkway
from the Airport housing addition and crossing Highway 2 to the
convenience store using CTEP funds. We are also planning to construct a
frontage road for a new Wellness Center being built.
    This year, we received approximately $413,000 in safety grant
funding. With these funds we will restripe 26 miles of BIA routes, make
road improvements to Box Elder to Blair, prepare Public Service
Announcements (PSAs), and update our Tribal highway safety plan.
    More than a generation ago, when this Committee was considering
important changes to the Indian Self-Determination and Education
Assistance Act, the Committee noted the challenges faced primarily by
rural Indian tribes, especially the challenges of basic governmental
infrastructure, such as roads. I cannot think of a more tangible
expression of governmental services than building and maintaining
roads, bridges and transit systems that connect communities, generate
jobs and protect Tribal and non-member residents every day.
Transportation infrastructure is our foundation for a better tomorrow.
On behalf of the Assiniboine & Sioux Tribes, I thank you Mr. Chairman
and this entire Committee for all you have done for us and for all
Indian tribes. I urge you to share our transportation legislative
requests with the rest of the Senate. If enacted, the next highway bill
will give us the tools we need in the 21st Century to not only survive,
but to thrive and build our own successes.
    I thank the Committee for the opportunity to present this
testimony.

    The Chairman. I certainly appreciate your testimony. And I
appreciate your making the long haul to Washington, D.C. and
tell the chairman hello.
    Wes Martel, you are up.

          STATEMENT OF HON. WES MARTEL, MEMBER, JOINT
         BUSINESS COUNCIL OF THE EASTERN SHOSHONE AND
 NORTHERN ARAPAHO TRIBES OF THE WIND RIVER INDIAN RESERVATION;
 ACCOMPANIED BY JOHN SMITH, DIRECTOR, TRANSPORTATION DEPARTMENT

    Mr. Martel. Mr. Chairman, thank you for this time.
    While I do have a prepared statement, I would rather just
come and have an open dialogue. I will summarize some of the
points in my statement.
    But I would like to yield a little bit of my precious time
to Mr. Smith on a couple of important issues, as he is our
transportation director.
    First of all, on behalf of the Eastern Shoshone Business
Council Chairman Darwin St. Clair and Northern Arapaho Business
Council Chairman Darrell O'Neal, I would like to thank you for
this opportunity to provide testimony at this hearing. I was
really gratified to hear the questions and the opening remarks.
Because it really demonstrates the awareness that you and your
staff have of the problems that we face in Indian Country. And
your comment, Mr. Chairman, to help improve the effectiveness
of the BIA was music to my ears. That is really an area that
needs a lot of attention from what we are dealing with.

    We are very proud of our successes on the Wind River
Reservation. We have just completed an $18 million
reconstruction and safety renovation project of what is known
as the Seventeen Mile Road. I have a CD here for you, Mr.
Chairman, we presented one to Senator Barrasso a few weeks
back, on how that project worked. It was probably the most road
in Wyoming. And we were able to work together with WYDOT,
Federal Highway, BIA and the Shoshone and Arapaho Tribes and
put together a road that is so nice to drive on, nice, safe,
very modern, very wide road that took a lot of our lives and
claimed a lot of our people and hurt a lot of our people. So we
are very proud of that project. I was just telling the Federal
officials here this morning, despite all the trials and
tribulations we go through, there are still some positive
things happening, even thought we are severely underfunded and
the bureaucracy at times is a hindrance to moving fast on some
of these projects.
    The Federal Lands highway program and the Indian
Reservation Roads program represent for us a major avenue
through which the United States Government fulfills its treaty
obligations and honors its trust responsibilities. The biggest
problem that we have, and I am sure glad to hear the comments
about that this morning, is a lack of funding. It was
unfortunate that MAP-21 did not increase the authorization for
the Tribal Transportation Program from what it had been under
SAFETEA-LU, which was only $450 million a year. I was glad to
hear your questions related to the take-downs and how that
detracts and de-funds important roads construction projects.
    In my testimony, I have discussed how underfunded the TTP
really is. Yesterday I talked to officials at the department of
Transportation to get the latest numbers. They indicate we have
a backlog of $80 billion in needed road and bridge
construction, transit and safety programs in Indian Country.
Mr. Chairman and Senator Barrasso, the statistics on the
numbers of accidents in Indian Country that are directly
attributable to bad roads should shock the conscience of every
member of Congress. I was so glad to hear all three of your
opening remarks, because that is a known fact. Our people and
children are dying and being injured at many times the rate,
and that has already been mentioned.
    I would like to yield a little bit of my time, Mr.
Chairman, to our Director Smith. He wants to talk a little bit
about data and some of the maintenance issues.
    The Chairman. Mr. Smith?
    Mr. Smith. Thank you, Senators Tester, Barrasso and Senator
Heitkamp. In fact, I have one of your tee-shirts, I donated $50
at the United Tribes to get you elected when you were there
talking about our safety projects.
    [Laughter.]
    Mr. Smith. It is quite an honor to be here for me, and we
also campaigned for Senator Barrasso in the same manner.
    [Laughter.]
    Mr. Smith. It is always an honor to be here and to
accompany Mr. Martel. He has been a lifelong friend of mine and
we have worked on several issues together, not only in
transportation but in education and safety on our tribes. We
are fortunate to do a model safety project that was worked
through the Wyoming WellTAP center. It provided a great
benefit.
    What we are talking about here when we talk about road
maintenance and the other things is really what is becoming a
new phrase, is the livability. Livability is a whole new buzz
word that talks about the safety of road traffic, getting
people to dialysis treatments. Our reservation is very enormous
and we are opening up a brand new transit facility that will
have four buses with wheelchair lifts. We try to maintain a
schedule, early in the morning for; we have over 72 dialysis
patients on the Wind River Reservation and the Shoshone Tribe
also offers a dialysis center. Getting them to dialysis is a
major obstacle that we have in getting roads open and also
transporting them on their schedule. It is a life-threatening
situation daily for those people.
    So our safety program has really been an effort that is
even tacking onto emergency services, even. When we have floods
on our roadways and so forth, we have to pay for those
generally out of our construction funds before we can talk
about getting reimbursed by FEMA and also what you were talking
about earlier, the heavy amount of paperwork. We do about a
mile worth of paperwork for every mile of road. Those things
are very critical when you are doing a deficient bridge. We
have a community in Wyoming that necessitates the residents
there who live on one side of the river and have hayfields on
the other side to go 190 miles to change their irrigation
water. Those things are very important to our residents and
their safety and welfare is also another factor.
    So I am glad to be here, and if you have any questions, I
would be glad to answer those at the end of the discussion and
get a little more specific about things. One of the other
things was the data. As we sit here and as your questions were
directed to Mr. Black about data, the tribes also have that
same concern. We are trying to develop our position papers
here. We had to use data that was done two years ago, it is the
best practical data that we had to provide our statements to
you today. We really need to improve the availability of the
data and the reporting and the benefits that can assist the
tribe in developing an adequate construction program and road
maintenance program. Road maintenance is a very severe problem.
We were here two weeks ago and met with the Eastern Tribes on
their request to attend. Many of the tribes in the eastern
region mentioned that when they get their monies, it is not a
lot, some of the tribes don't have very many roads. But most of
their money goes straight to road maintenance. Their 20 percent
of their funding for the year is developed basically for
keeping their roads under passable condition.

    Thank you very much, Senator.
    [The prepared statement of Mr. Martel follows:]

 Prepared Statement of Hon. Wes Martel, Member, Joint Business Council
 of the Eastern Shoshone and Northern Arapaho Tribes of the Wind River
                           Indian Reservation
Introduction
    Good morning, Chairman Tester, Vice Chairman Barrasso and members
of this Committee. My name is Wes Martel, I am a member of Eastern
Shoshone Business Council and am authorized to speak on behalf of the
Joint Business Council that represents both tribes on our reservation.
    On behalf of Eastern Shoshone Business Council Chairman Darwin St.
Clair and Northern Arapaho Business Council Chairman Darrell O'Neal and
the Tribal members of the Wind River Indian Reservation in Wyoming, I
thank you for this opportunity to provide testimony concerning
Transportation Issues in Indian Country. I am pleased that John Smith
is accompanying me today. He is the Transportation Division Director
for our Reservation and also serves as Executive Director of the
Intertribal Transportation Association. Since 2004 he has served as the
representative from the Rocky Mountain Region to the Tribal
Transportation Program Coordinating Committee. He is perhaps the most
senior member of that Committee and has great expertise.
    The Federal Lands Highway Program and the Indian Reservation Roads
Program represents for us a major avenue through which the United
States Government fulfills its trust responsibilities and honors its
obligations to the Eastern Shoshone tribe and to other Indian tribes.
This program is vital to the well being of all Native people living on
Indian lands throughout the United States. Because of its great
importance, reform of the Indian Reservation Roads Program has become a
top legislative priority for many Indian Tribes.
Background on the Wind River Indian Reservation
    The Wind River Indian Reservation is located in a rural area within
the boundaries of the State of Wyoming. Our 2.2 million acre
Reservation has tribal land held in trust for our Tribes by the United
States. Consequently, our Tribal Government has a large land area over
which we exercise full and exclusive governmental authority and control
in conjunction with the United States. At the same time, due in part to
our location far from centers of population and commerce, we have few
jobs available on our Reservation. The unemployment rate at Wind River
remains at an outrageously high level, many times the state or national
average. While we are proud of progress we have made, the lack of
adequate transportation facilities, communications, and other necessary
infrastructure continues to significantly impair economic development
and job opportunities.
    The Shoshone and Arapaho Tribes are grateful for the leadership
role this committee has taken to support the Tribal initiatives and we
hope you will do so again in the upcoming reauthorization of MAP-21. We
are thankful for the opportunity to comment on the reauthorization of
this important legislation.
Reauthorization of Tribal Transportation Programs
    Although great strides have been made in improving the IRR program
under TEA-21, SAFETEA-LU and MAP-21, several issues have arisen that
that are negatively affecting the full implementation of the provisions
of these Acts as intended by Congress.
    Indian Reservation Road funding (now known at Tribal Transportation
Program or TTP funding) serves a crucial need in Indian country. While
Congress increased IRR/TTP allocations since you first enacted TEA-21,
the funding continues to lag far behind an even faster-growing need.
Unfortunately in MAP-21, not only did the authorization levels for
tribes not increase but the authorizing committees with jurisdiction
transferred the bridge program, which had been funded separately, to
the road construction account and we were told to just take bridge
construction costs out from these funds. So the total authorization
ended up resulting in a net loss because bridges ended up being a take
down from the roads funds. That must be reversed in the next highway
bill and authorizations for the TTP must increase.
    We firmly believe that the Indian Reservation Roads Program was
established for benefit of Indians living on Indian Reservations. This
is a Trust Responsibility of the Federal Government guaranteed by
Treaties between Indian Tribes and the Federal Government. We strongly
support and urge the retention of the statutory formula that the
Congress included in MAP-21. While MAP-21 was a two year bill, the TTP
formula was proposed to be phased in over five years. It is essential
that the formula be retained and reiterated in the next highway bill as
it stopped what had been a problematic policy of reservation road money
being diverted to off-reservation state and county roads. This
testimony will not dwell on that topic as we did in 2011 because we
think you fixed the allocation problems and we want to present a
unified front with other tribes as was agreed to at the recent
Transportation Unity Conference in Denver. While we agree with much of
the Unity Summit's recommendations there are some areas that need
clarification. The Summit recommended that each tribe be provided with
a minimum base budget of $75,000 for transportation. That may work if
the authorization is increased and that there is no net loss to any
tribe. Yesterday we discussed this with the proponent of the $75,000
minimum per tribe concept and he indicated that his intent was that it
would only apply if there was an increase in the overall funding for
the TTP. He indicates it would take three million dollars to reach that
minimum for tribes who are now getting less. Hopefully the authorized
increase will be much higher than that figure.
    It also may be necessary to define the parameters of the word
``access'' in the next highway bill since the BIA has never defined it.
Since the BIA still has not issued regulations to implement MAP-21 in
Indian country we cannot be certain that this issue has been resolved.
It may be best to do it through statute. The Indian Reservation Road
Tribal Coordinating Committee met in Sacramento a couple of years ago
and agreed that while roads accessing Indian reservations need to be
included in tribal inventories there must be limits and the agreed
amount was 15 miles from the perimeter of the reservation. We recommend
this committee include this limit in any of your recommendations.
    Finally, the Unity Summit recommended that the High Priority
Program (HPP) be funded with Highway Trust Fund dollars but the
document out of the Denver Summit omitted a point that we believe was
agreed to by the group which is that all tribes can apply for HPP
funds. In the past if your tribe received more than $1 million in IRR
dollars, you were prohibited from applying for HPP funds. This led to
some absurd scenarios where tribes with very few lands, roads or people
were, through the HPP, getting more money than tribes with hundreds of
miles of deteriorating roads. Ensuring all can apply for HPP will
correct that problem.
Indian Reservation Roads Program and Its Impact on Safety
    A study conducted by the National Center for Statistics and
Analysis (NCSA) and sponsored by the National Highway Traffic Safety
Administration found that 5,962 fatal motor vehicle crashes occurred on
roads under the jurisdiction of Indian reservations between 1975 and
2002, an average of 213 fatal crashes per year. In 2002, the number of
crashes on reservations reached a new high of 276, representing a 4.5
percent increase over the previous recorded high of 264 crashes in 1996
and a 52.5 percent increase over the 181 crashes in 1975. Over the
years, these on-reservation crashes have resulted in the loss of 7,093
lives of which 3,322 were drivers, 2,717 were passengers and 1,001 were
pedestrians.
    The objective of the study was to examine the characteristics of
fatal motor vehicle crashes that occurred on federal lands,
specifically, those lands that have been designated as Indian
reservations. Using data from the 1975-2002 NCSA's Fatality Analysis
Reporting System (FARS), characteristics of these crashes were examined
to better understand the circumstances that are involved in these
particular types of crashes.
    According to the Department of Transportation there is an unmet
transportation need in Indian country of nearly $80 billion if you
count roads as well as maintenance and bridges and safety planning.
These are lands the US holds in trust. Our roads and bridges must be
improved so that they are at a ``safe and adequate standard.'' We
realize it will take decades to get through this backlog but we have to
start somewhere. Increasing the authorizations in the next highway bill
for transportation needs in Indian country is the place to start.
Road Maintenance
    Protection of the investment in any type of infrastructure requires
proper maintenance. Historically, the IRR maintenance system has been
chronically under-funded which has caused safety hazards and premature
failure of many roads on the IRR system. Roads usually have a 20 year
design life but, because of inadequate maintenance, many of the IRR
system roads last only about half of their design life and have to be
reconstructed much sooner. The BIA is responsible for maintaining BIA
system roads; however the funding BIA provides is less than 25 percent
of what is required to properly maintain the system. The IRR
maintenance situation has become even more critical with the increase
of IRR roads. BIA road maintenance funding is declining.
    The BIA Road Maintenance Program has been chronically underfunded
under the U.S. Department of the Interior. This program is included in
the Tribal Priority Allocation (TPA) and must compete with other Tribal
social programs for funding. The funding invested in Road and Bridge
Construction on Indian Reservations is being compromised due to
inadequate maintenance funding. While funding for Road Construction has
increased, the amount of funding available for Road Maintenance has
declined. Consequently, roads and bridges constructed on Indian
Reservations last about half of their design life. The maintenance of
these facilities is a Federal responsibility and the health and welfare
of Tribal members who have to use these roads is at risk on most
reservations.
    The BIA receives approximately $25 million per year as part of its
lump sum appropriation for road maintenance activities. What is fairly
astonishing is that OMB has not allowed BIA to request more than that
for the past 22 years and prior to 22 years ago the BIA requested $41
million. BIA now estimates that $120 million per year is actually what
is needed to properly maintain roads on the BIA system. At present
levels, the BIA spends probably around $700 in maintenance funding per
mile; most state transportation departments spend many times that
figure. We had previously thought states were spending $4,000 to $5,000
per mile on maintenance of state roads but if you read the study you
will see that state and county expenditures for maintenance are in fact
much higher and they are spending between $8,000 to $12,000 per mile.
This inequity must be remedied in the next highway bill.
    If the Congress cannot or will not increase the BIA road
maintenance account to a realistic level, the only practical solution
we see for this problem is allocate a separate amount of money in the
next highway bill from the HTF for road maintenance in Indian country
as are other Federal Lands Highway Programs roads. Telling tribes to
take it out of our road construction funds is robbing Peter to pay Paul
and not working very well.
    It seems inevitable that a gas tax increase will be required to
fund the nearly bankrupt Highway Trust Fund. If a gas tax is
implemented we advocate for a portion of the increase (probably a half
or one cent) be set aside for the Federal Lands Programs and to include
funding for the BIA road maintenance system out of this amount.
Take Downs
    Too much money is being taken out of the $450 million that Indian
country is getting from the Highway Trust Fund each year. These are
known as take downs. In FY 13 we experienced the following drawdowns:

Rescission                            $900,000
4.1 percent Obligation Limitation     $18.5 million
2 percent for Safety Programs         $9 million
2 percent for Bridges                 $9 million
2 percent for Planning                $9 million
6 percent for BIA & DOT Admin         $27 million
------------------------------------------------------------------------
                                      $73.4 is taken away from money
                                       authorized for construction
------------------------------------------------------------------------

    These are important expenditures and deserve to be funded on their
own in the highway bill and not taken away from our roads funds.
    Consistent with the Unity Caucus Recommendations we recommend:

        1.)  Increasing funding for the TTP to $800 million for FY 2015
        with annual step increases of $50 million resulting in annual
        funding of $1.05 billion in FY 2020. Because funding for the
        TTP has not been increased since 2009, and has actually been
        reduced through take downs, this funding recommendation is
        quite modest. But it will allow tribes to make some headway on
        the unmet construction need.
        2.)  Establish a Tribal Maintenance Program at $50 million with
        annual step increases of $5 million, for BIA and tribally owned
        transportation facilities, and encourage funding of at least
        $150 million for the BIA road maintenance program.
        3.)  Increase funding for the Tribal Transit Program, implement
        annual step increases, and ensure stable funding for
        established tribal transit programs.
        4.)  Restore Highway Trust Fund allocation for the Tribal High
        Priority Projects Program, which has not been funded under MAP-
        21, and increase the maximum grant amount and increase funding
        to $35 million with annual step increases provided all tribes
        can apply for these funds
        5.)  Redistribute 10 percent of unused obligation authority to
        the TTP for competitive grants to remote tribes.
        6.)  Separately fund the TTP Bridge Program at $75 million with
        annual step increases and authorize use of funds for
        construction and design of new bridges.
        7.)  Establish $75,000 as the minimum annual TTP program
        funding allocation provided this $3 million increase needed to
        fund this minimum amount per tribe comes from an increased
        authorization.
        8.)  Restore the TTP exemption from the obligation limitation
        deduction.
        9.)  Reduce BIA and FHWA administrative take downs from 6
        percent to 5 percent, and impose a 28 million annual cap.
        10.)  Begin to address the highway safety crisis in Indian
        country by establishing a 2 percent tribal set-aside from the
        Highway Safety Improvement Program, a 3 percent tribal-set
        aside from NHTSA, and a 3 percent set-aside from the
        Transportation Alternatives program to build or enhance safe
        routes to schools, scenic byways, and pedestrian paths. Without
        a tribal set-aside, the experience under MAP-21 is that the
        states provide little funding to tribes.
        11.)  Create a tribal self-governance program under the U.S.
        Department of Transportation (DOT) to streamline funding
        agreements and clarify the extension of the benefits of the
        Indian Self-Determination and Education Assistance Act to DOT.
        This recommendation was vetted with DOT officials in 2011 and
        it was adopted as an amendment to HR 7.
        12.)  At the request of a state and tribe, require the BIA or
        FHWA to award state administered Federal-Aid funds to a tribe
        through a TTP or ISDEAA agreement to facilitate
        intergovernmental cooperation and collaboration.
        13.)  Ensure tribal eligibility for all DOT programs and
        discretionary and competitive grants, which was adopted as an
        amendment to HR 7.
        14.)  Require BIA to improve Right-of-Way challenges management
        and provide funding to implement corrections, improvement and
        to pay trespass damages.
        15.)  Authorize tribes to assume responsibility for approving
        NEPA documents if a tribe provides a limited sovereign immunity
        waiver for administrative actions. This is modeled on Title V
        of ISDEAA.
        16.)  Improve efficiency in delivering Emergency Relief Funds
        to tribes.
        17.)  Establish a tribal infrastructure bank capitalized at $10
        million to provide low interest loans for tribal transportation
        projects.
        18.)  Increase funding for the Tribal Technical Assistance
        Program.

Conclusion
    On behalf of the Eastern Shoshone and Northern Arapaho Business
Councils, I thank the Committee for its attention to and support for
transportation needs in Indian country. Thank you for inviting the
Joint Business Council to present this testimony. If we can answer any
questions, now or at some future date, please do not hesitate to ask.

    The Chairman. Thank you both, Mr. Martel and Mr. Smith, for
your testimony.
    Mr. Thomas, you may proceed.

        STATEMENT OF HON. EDWARD K. THOMAS, PRESIDENT,
        CENTRAL COUNCIL OF THE TLINGIT AND HAIDA INDIAN
                        TRIBES OF ALASKA

    Mr. Thomas. Thank you very much, Mr. Chairman. My name is
Ed Thomas, I am President of the Tlingit Haida Central Council
out of Juneau, Alaska. I am honored to be here to provide
testimony to this very distinguished Committee.
    I too do have some written comments that are submitted for
the record. But I will talk briefly about some of the
challenges we face in Alaska. Most of you are aware that Alaska
is a very large State. Many of our communities are very
isolated, mostly by distance. But in my part of the State, we
are not only separated by distance but also by water. We are
primarily made up of islands within my region.
    The cost of doing business in Alaska is tremendously high,
a lot higher than the rest of the United Sates. And so it is
very important for us to address the issue of what it will cost
to do business when it comes to roads. I do not want to repeat
what my colleagues here have stated. I totally agree with the
statements that were made.
    But I want to talk a little bit also about MAP-21. When it
was rolled out a couple of years ago, I happened to be here in
Washington, D.C. Along with a number of other tribal leaders,
we expressed our concern about the change in the approach that
MAP-21 took to the utilization of formulas. It was not totally
clear at that time what was going to happen. We asked questions
about negotiated rulemaking and at that time, they said, well,
it doesn't look like there is going to be any, because we are
building into the law the formula.
    Normally when people of good intentions do that type of
stuff, it comes out to the benefit of us who are the recipients
of those programs. However, MAP-21 didn't work out that way.
The formulas that came down totally negated several areas of
the negotiated rulemaking. They created a situation where, when
our sovereign tribes worked together and compromised on what
our needs were, those formulas went away.
    Let me give you just a brief example of the impact in one
community in southeast Alaska. We have Saxman that we have
joined forces with. Under the SAFETEA-OLU, they had $63,000 for
the entire year, and then under MAP-21, they were left with
$49,000. Now, those of you who are in the road business or
understand roads, tell me how many miles of roads can you build
with $49,000? Not very many roads. And to get that kind of
reduction, even in a community like Saxman where it does have
better access to a municipality, it is really very difficult to
do anything with those kinds of dollars.
    Let me make another point. Many of our communities, they
are lucky to have roads from their municipality to an airport
or to a boat harbor. Even though their livelihood depends a lot
upon having that access, those roads are much limited in many
of our rural communities.
    So I think it is very important to talk a little bit more
about some of the things that we did under negotiated
rulemaking, and bring some of those issues back to the table
for the benefit of those tribes that really do struggle with
small amounts of money.
    One point I wanted to make also, when MAP-21 was rolled
out, the comment was made that we really need to get more bang
for the bucks. And that resonates in this climate where dollars
are tight. But when we are taking that idea out to rural
Alaska, where you have small populations, very isolated, high
cost of doing business and struggling to get money even to
build schools and hospitals, it is really pretty tough to have
small amounts of money. So I believe very strongly that when
MAP-21 was rolled out, Senator Bennett, I believe, said that we
are looking at trying to increase the money to about $800
million. That was a couple of years ago. I commend him for
that.
    I believe very strongly that that should be a benchmark
right now. It should not be the $460 million that we are
debating over now. Because when it compares to the rest of
America, the climate of roads in Indian Country and rural
Alaska, there is just really no comparison. We need to get back
up to that.
    I bring up the issue of negotiated rulemaking because I
believe that tribes themselves need to work together on what
works best for us collectively. And when MAP-21 came out, there
was really no consultation or participation in the development
of the rules that I speak about.
    Let me give you one more example of the struggle that we
have with MAP-21 funding. Thirty-four percent of the dollars
under MAP-21, they are equal to each of the 12 regions in this
Country. The difficulty with that is, there are 229 federally-
recognized tribes that need to divide up their one-twelfth of
the money. Now they are to use one tribe for one region and we
have some agents that have seven tribes and some that have 16.
So you can see the disparity in the distribution of dollars
once it gets to the region. We really would like to redress
that.
    With that, I think I will close my comments. I very much
appreciate the opportunity to provide my testimony and to
provide testimony in this very important room that I think
should be named for Senator Daniel Inouye. He fought long and
hard to have a room whereby Native American issues can be
discussed. The design of it is very appealing to the issues
that Indian Country has to address on a regular basis.

    Thank you, Mr. Chairman. I very much appreciate your
comments and I am glad to see Lisa Murkowski, our Senator from
Alaska here.
    [The prepared statement of Mr. Thomas follows:]

 Prepared Statement of Edward K. Thomas, President, Central Council of
             the Tlingit and Haida Indian Tribes of Alaska
Introduction
    Good Morning! My name is Edward K. Thomas, and I am the duly-
elected President of the Central Council of Tlingit & Haida Indian
Tribes of Alaska (``CCTHITA'' or ``Central Council''), a federally
recognized Indian Tribe representing over 29,000 tribal citizens
primarily in 18 communities in Southeast Alaska.
Personal Background
    Since the early 1980s, I have had the privilege of being in tribal
leadership. I plan to retire next month after having served as Central
Council's President for 27 years. Over the past four decades, I have
had the opportunity to provide Capitol Hill testimony on many dozens of
occasions and have met with six U.S. presidents and dozens of federal
officials. Thank you for honoring me with your request to testify today
to the Senate Committee on Indian Affairs in this hearing entitled
``Tribal Transportation: Pathways to Infrastructure and Economic
Development in Indian Country.''
Equitable Access to Transportation is a Matter of Life and Death
    I believe the reauthorization of the transportation legislation
holds great potential to provide critically-needed assistance to
address the vast unmet needs of Indian tribal governments in our roads
systems.
    That great potential for good lies in your hands. However, that
potential is also a heavy responsibility on your shoulders.
    Indian Country lags far behind the rest of America in terms of
access to vital services and markets. This is particularly true in
rural parts of Indian Country, especially in rural Alaska.
    In rural Indian Country, we dial 9-1-1 and then wait for hours,
sometimes days, for law enforcement or emergency medical help to
arrive. Unlike in the rest of America, ``access'' in Indian Country is
often a matter of life or death.
    America focuses on healthy food lifestyles, but in rural Indian
Country we are hours away from healthy food markets.
    The lack of transportation facilities in rural Indian Country
blocks our access to economic recovery, and to jobs, and to markets. It
should come as no surprise, then, that high unemployment and systemic
economic depression defines much of Indian Country today. We simply
don't have the infrastructure access that is expected and enjoyed by
all other Americans.
    This is a great inequity. Surely in the transportation
reauthorization, and the accompanying allocation of national Highway
Trust Fund revenues, this Committee and its colleagues in the Senate
and House should make a special effort to rectify this situation.
MAP-21 Worsened Our Problems
    MAP-21 made our situation worse because it tossed aside an
allocation formula based on ``relative needs'' that had been carefully
crafted by tribal stakeholders ourselves in a negotiated rulemaking
proceeding. The MAP-21 approach resulted in dramatic cuts in funding to
some tribes (many of them smaller and isolated) and dramatic increases
in funding for other tribes. The changes had little if any logical
connection to ``relative need'' or degree of access to critical
services.
    Instead of relative needs, the MAP-21 formula reflected the
``relative power'' of political muscles here on Capitol Hill. This is
what happens when Washington D.C. power brokers make the decisions
affecting Indian Country rather than tribal governments ourselves in a
negotiated rulemaking procedure consistent with Indian self-
determination and tribal self-governance.
    Now let me be clear--Central Council did relatively ok under the
MAP-21 formula, largely because the MAP-21 formula favored tribes with
relatively large census numbers. But Central Council continues to
object to both the MAP-21 formula process and outcome, because the MAP-
21 formula short-changed many smaller and more remote tribes,
especially those in Alaska. This is neither fair nor just. Allocation
formula decisions like these should be made by all the tribal
stakeholders together, not by the politicians holding power in
Washington, D.C.
Freeze the FY 2012 Formula and Mandate Tribal Negotiated Rulemaking
    Further harm will result if what I call the MAP-21 ``relative power
formula'' is left on autopilot for Fiscal Year 2015 and beyond.
Instead, as set out below, Central Council asks this Committee to seek
to statutorily:

        (a)  freeze in place the FY 2012 relative funding allocation
        formula for FY 2015 and FY 2016, and

        (b)  require a new tribal negotiated rulemaking committee to
        come up with a more refined relative needs formula for FY 2017
        and future years.

Include the Tribal Transportation Unity Coalition Suggestions
    Central Council supports the position papers developed by the
Tribal Transportation Unity Coalition (TTUC) which I have attached and
submitted at the end of my written testimony. The new transportation
reauthorization bill should include these TTUC recommendations, which
many tribes believe would bring modest but much needed improvements to
our tribal community road systems. We have to begin with small steps
like these recommendations if Indian Country is ever, in our lifetimes,
going to reach the standards for a livable community enjoyed by non-
tribal communities across America.
We Must Make Indian Country Accessible and Liveable
    Tribal communities have always received far less federal
transportation funding than have federal, state and local governments.
Where roads and other intermodal systems exist in Indian Country, they
are much less safe than those in non-tribal communities. And the
biggest problem is that, for many rural Indian communities,
transportation infrastructure simply does not exist. As a result,
travel is an extremely risky and dangerous activity for many of our
tribal citizens.
    Our inadequate roads block our economic development and commerce,
restrict essential services, and pose a serious obstacle to our
citizens who simply want to get to and from work and home.
    On health care, for much of Indian Country the question is whether
it is ``accessible'', not whether it is ``affordable''.
    The end result is that many rural tribal communities fail every
livability test because of our non-existent or unsafe roads. For
decades now, inequitable funding for Indian roads has meant the few
road miles we have are unsafe or impassable and the many miles of
additional roads we need are left un-built.
Equity and Fairness Must Shape the New Transportation Legislation
    These challenges could be met by this Committee and your colleagues
if a simple yardstick of equity and fairness was used to shape the new
transportation reauthorization bill. Here are the standards I would
encourage to use in drafting the new bill:

        1.  Equitable funding compared to the rest of America. Indian
        Country deserves a sufficient share and an equitable allocation
        among tribes of the dwindling Highway Trust Fund so that Indian
        Country can catch up to the rest of America, and so that
        citizens of Indian tribal governments in their homelands can
        have the same basic safe access to essential services and
        markets enjoyed by the rest of Americans. Congress must
        recognize that Indian Country merits a bigger share of the
        Highway Trust Fund because tribal roads DO NOT now provide safe
        access to critical health services, supplies, job markets, and
        trade opportunities for remote communities throughout Indian
        Country, compared to the degree of safe access accorded much of
        the rest of America.

        2.  Equitable funding distribution formula. The MAP-21 funding
        distribution allocation among tribes is inequitable. It must be
        replaced. The prior SAFETEA-LU relative-needs formula (RNF)
        adopted some years ago by all tribal stakeholders in negotiated
        rulemaking, as applied in FY 2012, should be reinstated for FY
        2015 and FY 2016 while a new tribal negotiated rulemaking
        committee negotiates a new relative needs formula for FY 2017
        and beyond. In other words, the new roads reauthorization
        language should freeze the FY 2012 funding distribution formula
        in place for FY 2015 and FY 2016 and require that tribes employ
        negotiated rulemaking to negotiate among tribal sovereigns a
        new relative-needs formula for FY 2017 and future years.

        3.  Tribal negotiated rulemaking. Tribal negotiated rulemaking
        is the ONLY way that tribal-federal policy should be made on
        major decisions involving roads formulas and programs.
        Sovereign tribes are the ONLY stakeholders in these decisions.
        Nobody else should decide. Not Congress. Not federal
        bureaucrats. A tribal negotiated rulemaking process be used to
        make all key decisions. Anything less than tribal negotiated
        rulemaking offends tribal sovereignty, belittles Indian self-
        determination and side-steps tribal self-governance.

        4.  Relative needs must be carefully balanced. A relative-needs
        formula developed under negotiated rulemaking should balance
        key factors in an effort to be equitable relative to all
        tribes, such as: tribal service area of land and distance to
        travel, number of people, and safe access to essential services
        and markets. The SAFETEA-LU relative-needs formula should serve
        as the starting point for a new tribal negotiated rulemaking
        committee's formulation of a new relative-needs formula for
        future years.

        5.  Steer unused obligation authority to unmet indian country
        needs. Given the huge unmet needs of Indian Country compared to
        the rest of America, any transportation reauthorization
        legislation should reallocate to a Safe Access for Tribal
        Communities Fund at least 10 percent of the obligation
        authority within the overall Highway Trust Fund which remains
        unused by states at the end of each fiscal year. Upon transfer
        of this obligation authority to the Safe Access for Tribal
        Communities Fund, these funds should be available for
        competitively awarded applications by tribes to address unmet
        needs similar to the requirements of the High Priority Projects
        under SAFETEA-LU.

        6.  Full tribal self-governance. Pub.L. 93-638 authority should
        be fully extended to all aspects of tribal funding and services
        related to the Highway Trust Fund and administered by the U.S.
        Department of Transportation (DoT) and the U.S. Department of
        the Interior (DoI). The new law should clarify that this tribal
        authority is a mandatory obligation of both DoT and DoI, and is
        not subject to discretion. It should also clarify that all
        Highway Trust Funds, including those used by the DoT or DoI to
        administer the program, are contractible and subject to Pub.L.
        93-638 authorities.

Conclusions
    The overall amount of funds distributed from the federal Highway
Trust Fund to Indian country transportation needs should be equitable.
What is fair must be understood in terms of the huge accumulation of
unmet need and the growing gap, in terms of access to essential
services, between Indian Country and the rest of America. That equity
in overall funding should be matched equity in the distribution of the
Indian Country roads program funds among tribes.
    Central Council supports the TTUC's Tribal Transportation Unity Act
requests but notes that they do not address the over-arching question
of what funding allocation formula will be used to distribute the funds
among tribes. Central Council opposes including a funding allocation
formula in any new transportation bill.
    Instead, Central Council asks that the new statute require the FY
2012 funding allocation formula to be followed for FY 2015 and FY 2016
and require that a new relative-needs formula be developed by tribes in
a negotiated rulemaking procedure for FY 2017 and future years.
Negotiated rule making is the only approach that is consistent with
tribal sovereignty and with having tribes themselves decide how funds
are allocated among tribes. Tribes are the only stakeholders who should
matter in this negotiation. In the spirit of tribal sovereignty, only
tribal governments should shape how federal roads funds are allocated
among tribes to meet the unmet priority transportation needs of Indian
Country.
    Thank you.
    Attachments

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Mr. Thomas, and I will echo your
comments about Senator Inouye, somebody who we miss greatly
today. Thank you all for your testimony.
    Senator Murkowski is here, and I would let her give her
opening statement and ask questions at this point in time.

               STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. In my opening
statement I was going to speak to much of what Mr. Thomas has
already provided in his very well articulated statement. So I
will defer on that. Thank you, first, for this hearing. I think
it is exceptionally important.
    Just to pick up on the comment here about our friend and
former colleague, Senator Inouye, I think he would be proud of
this room and how it has been kind of transformed to reflect
some of American Indian heritage. There has been some
discussion, though, that this room lacks a totem pole. I think
we are still kind of working on the totem pole. They are big
and they take up some space. But I think it would be important,
recognizing the very close relationship that Senator Inouye
from Hawaii had with Senator Stevens from Alaska. So we will
work on that.
    I also want to recognize the contributions of Ed Thomas. He
has been doing a fabulous job for many, many years on so many
issues that are significant and important, not only to the
Tlingits in his region of southeast, but Alaska Natives
throughout our State. I understand, Ed, that you are retiring
next month. What I see though is more often than not, these
good fellows say that they are going to retire and they just
become more active. So I look forward to seeing you a lot more,
Ed, on your time. Thank you for your contributions.
    I do think that it is so important that you have spoken to
the issues of cost and how that relates to our geography, our
distance between places. But it is a fact that I think is
important that is worth repeating, that in Alaska 80 percent,
approximately 80 percent of our communities are not connected
by a road. So that means we fly, that means we take a boat,
that means supplies come in by barge. If you are in the
interior part of the State you might get two barges a year. So
planning for your supplies, incredibly difficult just getting
gravel to make a road.
    So when you look at the costs of building a road in Alaska,
it looks so far out of whack with the cost per road mile
anywhere else in the Country. They think that you must be doing
something wrong there. But keep in mind that we are dealing
with an area that is one-fifth the size of the United States of
America. Eighty percent of these communities are not accessible
by road or rail, so you can't get supplies in there cheaply.
Gravel sources may be hundreds of miles away.
    So to speak to the relative cost is something that is
hugely important to us. Then when you think about how the
system now works where you are dividing things 12 ways but
within one-twelfth in Alaska, we divide those funds amongst the
229 tribes, just how that all trickles down. It makes it very,
very difficult. It has been an issue that we have long
struggled with.
    I would ask you to go into a little more detail here, Ed,
on some of the administrative rules that the BIA has placed on
Alaska tribes participating in the Tribal Transportation
Program. Speak to the impact that they have had and then also
whether or not they have placed similar administrative rules on
tribes in the lower 48.
    Mr. Thomas. I can't speak on the lower 48, but let me give
you an example of my tribe. We began negotiating and trying to
get certification of our inventory in 1996. We did not get
certification until 2005. And we finally got some money in
2005. So that is just how long it has taken the government to
certify just the inventory. That is something you can do
probably in a couple of hours if you have a good database. And
I totally concur that some of these issues of database
management on that kind of stuff really needs to be better
handled, so that this certification doesn't take so long. But
that is just one example.
    When we have been getting involved in SAFETEA-LU and even
before that, maybe not before, but I think it was SAFETEA-LU,
we had such a bad feeling about the administration that we were
asking to reduce that 6 percent down and utilize some of those
dollars so that we could get some consultation, get some of the
jobs that needed to be done. Not just the inventory, but some
of the other paperwork that needed to happen relative to roads.
    So that is just an example from my tribe, dealing with the
delay of getting that inventory was just one example.
    The other part in Alaska, by the way, is that we have had
turnover. We have had turnover within the BIA roads department
that has also caused us problems in our communication with the
national as well as the tribes.
    Senator Murkowski. It appears that within the Alaska tribes
there is general consensus that formula changes to the Tribal
Transportation Program should go through a negotiated
rulemaking process. Do you trust the BIA to implement a fair
negotiated rulemaking process regarding the formula? I know
this is what we are asking for. How comfortable are we with
this?
    Mr. Thomas. I think that if you approach it in the manner
that it was done early on, where you included the tribes from
all across the Country, it would work. I think the one problem
that happens with us in Alaska especially is when budgets get
tight, then they reduce the numbers, and we don't have adequate
representation and rulemaking. But I have to say that I trust
that system better than I trust somebody without talking to us
making the formula.
    Senator Murkowski. That is fair.
    Mr. Chairman, I was not able to be here when the Federal
witnesses were testifying, I was in another committee. I do
have some questions for the record that I would like to submit
to them that many in Alaska have asked that I advance. So I
will be doing so. Thank you.
    The Chairman. Absolutely.
    Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman. First, Mr.
Smith, thank you for your comments and testimony. I am going to
start quoting you on the line if I may with your permission
that regulations require a mile worth of paperwork for every
mile worth of road. And that is about right, 6,000 pages of
paperwork for every mile of road. So it really puts it into
perspective, very, very well.
    Mr. Martel. thanks so much for coming back. You testified
in the past, I think September 2011, and we talked about the
need for additional maintenance on Wind River roads. You also
mentioned deaths and accidental injuries. The Chairman
mentioned that in his questions to the Federal panel. As an
orthopedic surgeon, I have taken care of folks from the Wind
River Reservation related to a number of those injuries. I
liked the comment that one of you made about the livability of
the roads and their importance.
    So I am just wondering how, for Wind River tribes, you have
been able to improve the safety of the roads and how your safer
roads contributed to a reduction in mortality rates and
accidental injury rates on our reservation in Wyoming.
    Mr. Martel. I would like to defer that to Mr. Smith, some
of it. But we have really been trying to take advantage of the
programs that have been offered by the Federal Highway and the
BIA. Fortunately, we have a transportation director that has
been in this game for quite a number of years and has been able
to take advantage of those programs. From Wind River and from
the Unity Summit that we had in Denver a couple of weeks ago,
we fully support the formula as it pertains to those programs.
As everybody states here, we all fully agree that we need
increased funding and we need to do something about the take-
downs.
    I would like to ask Mr. Smith to be a little more specific
on the safety issues and some of the cost benefits and the
preparation that goes into preparing to assemble all of the
parties that we got to improve the Seventeen Mile Road.
    Senator Barrasso. Let me ask one other question and then
you can decide which of you want to answer or also defer a part
to Mr. Smith. When you testified in September of 2011, you
really talked about the need for additional maintenance, I
think you said today, an $80 billion backlog in Indian Country.
    You testified that the roads then, a couple of years ago,
were lasting only about half the design life, a lot of it due
to deferred maintenance. So I was also asking, and maybe Mr.
Smith wants to comment as well, has there been any change or
improvement in the deferred maintenance or longevity,
specifically, of the roads.
    Mr. Martel. Not very much. We are still dealing with that
static level of funding for maintenance and that with some of
the issues of flooding that we had here a couple of years ago
and the heavy snows that we have had, really detracts from the
maintenance. A lot of our roads are in a sad state of
disrepair. But that maintenance really needs to be addressed,
Senator.
    Senator Barrasso. Thank you, Mr. Martel. Mr. Smith?
    Mr. Smith. Yes, Senator. The tribes of the rehabilitation
projects that came out a few years ago, a lot of the cracked
sealing and a lot of maintenance work that helps to keep the
asphalt from deteriorating quite as rapidly as it does if you
don't have the ability to do cracked seals and those types of
things, that pavement reduces to much of what Senator Tester
and others were talking about as far as getting the gravel,
pavement reduced to gravel to dirt. So those are really
proactive measures that we try to do yearly in the whole State
of Wyoming.
    What you do is, if you are a farmer, you plow when your
neighbor is plowing, you water when he waters to make sure he
is not taking your water. Well, we do that, the Wyoming
Department of Transportation, this is the season where we
generally do cracked sealing, when the cracks are wider, when
the weather allows us to get into those cracks and blow the
cracks out with air hoses and put longevity in our pavement.
    But the other part is when we address the safety issues
that Senator Tester talked about in Montana, the roads are
narrow. We have one to four roll-off roads where you are going
to go off the road you are generally going to roll. That was
designed maybe 20, 15 years ago. And now we have wider roads,
so we try to slope our shoulders. Much of that benefit came
from Federal Highway doing what was called Every Day Counts.
That was a real good situation that we took advantage of using
technology that was given out to a lot of tribes to utilize in
performing and expanding their road projects.
    We tried to emulate that as best we can and render it with
the best bucks we have. That is the answer to that question.
    Senator Barrasso. Thank you very much. Thanks to all the
witnesses. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    A question for Dana Buckles. In your testimony, you talked
about if oil and natural gas development came to Fort Peck
Reservation, which we are on the edge of it now, the tribes
wouldn't be prepared to handle it. In your assessment, what do
Fort Peck tribes need to do to be prepared for such an economic
boom?
    Mr. Buckles. Well, I think it is total infrastructure,
knowing the fact that if it does come, we don't have the
resources. We lack in certain areas, we would have to beef up
our law enforcement, hire more people. And looking at an
overall statement to that, it deals with a lot more too, we
would have to deal with health and maintain our roads. We just
don't have the resources there or the funding to do that.
    So we are really counting on hopefully that we see more
funding for that. Because watching the Bakken happen in
Williston and looking to see what happened at Fort Berthold,
the destroying of the roads. And we also have farmers and
ranchers who use the roads, and having to see oil trucks, water
trucks going across our roads, as far as Highway 2 and our BIA
roads, it is just going to create havoc for us. And to have to
maintain that with the money we have now, we don't have the
funding to do that.
    The Chairman. Let me ask you this. Do you talk to folks
within the BIA and talk to them about their budget and what the
real impacts are? You are talking about police protection, we
have talked about Indian Health Service earlier. We are talking
about roads today. Is anybody in contact with the folk at the
Federal level saying, hey, look, these are the kinds of
challenges we have, these are the kinds of challenges that are
coming down the pike and your budget needs to reflect that?
    Mr. Buckles. I don't have the answer to that, but I can get
you the answer. We are in contact with some of the Federal
departments here.
    The Chairman. Good. I think it is important that you do
that. I think not only for your tribe, but for every tribe that
is at the table and every tribe that is out there in the
Country. I just think it is important.
    I want to talk about administrative costs for a second. Do
you think that, in your opinion, any of the three of you can
answer this, and you don't have to agree, do you think the BIA
needs the full 6 percent that it takes in administrative costs?
    Mr. Martel. Mr. Chairman, we believe it would have a hard
time justifying that. That is really hard to nail down the
costs on that. When we talk to the BIA and others, we fully
support the formula as it was in MAP-21. Because the negotiated
rulemaking that was instituted resulted in total inequities.
And MAP-21 corrected that by allowing money to be spent on BIA
and tribal roads, on-reservation BIA and tribal roads.
    So we very much support the formula in MAP-21. I think Mr.
Smith might have some additional comment on the administrative
side.
    The Chairman. The Fort Peck Tribes are one of the first to
enter into an agreement with Federal Highways to operate the
transportation systems. Dana, could you talk about that
agreement? Do you believe it has allowed the tribes to better
address transportation needs?
    Mr. Buckles. Yes, I agree with that. We do to an extent
too, but as far as us as being that, it is an honor for the
tribes too. But I guess to me, I just have to go back to that
funding. I would probably have to get back to you on that
question, to update you more on that.
    The Chairman. That is fine. I think if we can get the
administration closer to the ground, which you guys self-
determine, where your needs are, it would seem to me that that
would make better sense and hopefully that agreement does that.
    Mr. Martel. just talk a little bit, and you can kick it
over to Mr. Smith, however you want to do it, about how we can
continue the progress that was made with MAP-21 to improve
tribal transportation programs that will better fulfill our
trust responsibilities and really empower you and the Indian
people of the area on transportation infrastructure.
    Mr. Martel. I will let Mr. Smith answer that.
    The Chairman. Sure.
    Mr. Smith. Mr. Chairman, that is a very good question. Our
recent meeting with the Tribal Unity Conference in Denver two
weeks ago really addressed that I think most appropriately. It
talked about increasing funding. It talked about set-aside
programs being deleted, being funded as a set-aside program, if
you will, as in bridges, Mr. Sparrow indicated that the 2
percent equated to $9 million in the MAP-21 formula. We would
suggest that the take-downs be set-asides in their own
practical arena, such as bridges and safety would be taken out
of what would be seen as a general fund, if you will, concept
to mean standalone funding.
    Formerly, the bridge program out of SAFETEA-LU was $18
million. And when it got included into MAP-21 it became $9
million because it was included in the overall program. So if
we let safety and the bridge programs as standalone projects
and not fund them out of the appropriation of the construction
funding program it would be much more advantageous. As was
mentioned, tribal bridges now have to be inspected. That was
not the same, it was introduced at the same time MAP-21 was
introduced, but that was one of the flaws that was unbeknownst
at that time to Indian tribes that they were also going to have
to inspect tribal bridges. Although the need was always there,
it just wasn't available for funding and to do that.
    So we still have a big void in bridges.
    The Chairman. Okay. Mr. Thomas, what part of Alaska do you
live in?
    Mr. Thomas. I live in Juneau, which is southeast Alaska.
    The Chairman. So you made a pretty good trip to get here,
you flew down to Seattle and across.
    Mr. Thomas. Yes.
    The Chairman. We appreciate your coming today, and
appreciate your making the trek, because it is a pretty long
haul. I have been up several times to help Senator Begich up
there, and it is not easy to get here. So we appreciate your
making that sacrifice.
    What do you see as the biggest impediments today which
prevent tribes from really building their transportation safety
and transit programs?
    Mr. Thomas. I think the biggest thing is funding. When you
have the backlog, that was mentioned in earlier testimony, as
we do, and then you divide up the limited budget, it really
creates more conflict between the tribes and the regions. And
it wastes time, it wastes everybody's time and it wastes money.
So by having equitable funding compared to other non-Indian
territories, I believe that that would help us tremendously and
would help with much better plans locally. Because we have to
wait several years in one community just to have enough money
for a small project.
    The Chairman. Thank you very much. I appreciate those
comments. I appreciate all of your comments and your testimony
and I appreciate all of you making the sacrifice to get in here
and talk about what is going on in Indian Country as you see
it. I very much thank you for the testimony, it is very
helpful.
    And I want to thank the previous panel too, for coming in
and their testimony. We will work on making sure they get their
testimony here a little quicker next time, I believe. But this
hearing record will remain open for two weeks. I encourage all
tribes and tribal organizations to submit testimony as we
prepare for this reauthorization. It is a critical
reauthorization for Indian Country. We all know that. It is
part of the way we not only get to school but create economic
development and provide for safety for Indian Country.
    With that, this Committee hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
                            A P P E N D I X

Joint Prepared Statement of Kathyleen Lone Tree-Whiterabbit, District 5
 Legislator/Tribal Secretary; David Greendeer, District 2 Legislator;
         Andrea Estebo, District 2 Legislator, Ho-Chunk Nation
    Chairman Tester and Committee members,
    We are three elected Representatives of the Ho-Chunk Nation who
have been selected by our colleagues on the Ho-Chunk Nation Legislature
to serve as the BIA Roads Legislative liaisons. The Ho-Chunk Nation is
pleased to provide the Senate Indian Affairs Committee with information
regarding the importance of federal transportation funding in meeting
the needs of our tribal members.
About Ho-Chunk Nation
    The Ho-Chunk Nation is one of the few tribes in the contiguous 48
states that do not have a single situs reservation. Instead, it has
scattered trust and fee parcels located in sixteen different counties
in the southern half of the State of Wisconsin. The trust and fee
parcels range in size from a couple acres to a few hundred acres
totaling approximately 7000 acres. The vast majority of this land was
purchased on the open market over the last seventy years by the Nation
as it rebuilds after numerous forced relocations. These properties
include housing sites, health care clinics, government office
buildings, various businesses, wildlife preserves and many cultural
sites.
    Due to the immense distances around and between the Nation's land
holdings and the rural nature of their location, adequate roadways and
transportation can be a challenge for tribal members, non-tribal
employees, customers and members of the general public who visit our
lands. It is not uncommon for our tribal members to commute long
distances each day to work at one of the Nation's businesses. In fact,
the President of our Nation and a number of current Legislators must
travel between 75 and 200 miles one way from home to office nearly
every day. Our tribal members have no choice but to drive to the
Nation's facilities in order to receive essential governmental
services, participate in cultural ceremonies, or to get to their jobs.
    As the Nation continues to grow and our government evolves to
address new demands, more emphasis is being put on economic development
and diversification in order to meet those needs. As part of a long
term strategy, the Nation is currently evaluating establishing a
Chapter 17 Corporation in order to facilitate new business
opportunities and provide employment for our tribal members. It is
envisioned that the duties of a new tribal corporation include
developing those tracts of land owned by the Nation that are suitable
for conducting business operations. This will require investment in
infrastructure such as sewer, water and of course, roadways. Federal
transportation funding would play a key role in the success of these
new ventures and assist the Nation in its efforts to reduce the high
unemployment of our tribal members.
Tribal Transportation Program
    For decades, those roads providing access to and serving the
Nation's lands were neglected by the state, counties and other local
units of government with primary ownership. During this time the Nation
was unable to fully participate in the Indian Reservation Roads Program
(IRR), now known as the Tribal Transportation Program (TTP), due to it
not having a land-based reservation. In 2004, after the passage and
implementation of the Safe, Accountable, Flexible, Efficient
Transportation Equity Act: A Legacy for Users (SAFETEA-LU), the Nation
was able to fully participate in the IRR Program the first time. This
allowed the Nation to undertake some desperately needed road
construction projects that mainly focused on safety improvements.
Funding from the Program also allowed the Nation to enter into
cooperative agreements with nearby units of local governments in order
to share costs for additional road construction projects that
benefitted tribal members as well as the general public. These
cooperative projects also helped foster good will and build
relationships between the Nation and surrounding non-tribal
governments.
    The passage and implementation of MAP-21 two years ago has resulted
in a significant decline in the funding that the Nation receives from
the TTP. The decrease in funding will require the Nation to modify its
Long Range Transportation Plan and curtail the size and number of road
construction projects it can accomplish. The new MAP-21 funding formula
has redistributed funding to some tribes at the expense of other
tribes. The Nation understands that many tribes rely on this funding
and therefore we are not asking for the formula to be changed again. We
do however ask that Congress increase the overall level of funding so
that the effects of the MAP-21 formula change are mitigated to some
extent.
Transportation Reauthorization
    Representative Lone Tree-WhiteRabbit had the pleasure of
representing the Nation at the Tribal Transportation Reauthorization
Unity Summit in Denver, Colorado in February this year. The Nation
supports the recommendations developed at the Unity Summit and
encourages the Committee members to support this initiative as well.
    During the Summit, over 50 tribes came together and developed a
unified position on a number of provisions for inclusion in the next
Highway bill. The support for these provisions from members of this
Committee is key to the success for Indian Country. The focus of the
recommendations from the Unity Summit is an increase in funding. An
increase in funding for tribal transportation programs will help
address the chronic unmet needs faced by All tribes across the country.
    Although the Nation supports all twelve recommendations to come out
of the Unity Summit, the provision that would be most beneficial to the
Nation is the increase in funding for the TTP. As stated earlier, an
increase would help mitigate the decrease in funding experienced by
many tribes due to the formula change under MAP-21. In the case of the
Nation, an increase in funding would also likely translate directly
into an increase in employment, not only for tribal members, but for
non-tribal members as well. As the Nation moves forward with its
economic development plans, funding from the TTP would play a pivotal
role in the success of future tribal businesses.
    Thank you for your time and attention. We hope you find this
information useful as you move forward with your deliberations on
tribal transportation issues. Please support the recommendations of the
Tribal Transportation Reauthorization Unity Summit and include them in
the reauthorization of the next Highway bill.
                                 ______

    Prepared Statement of C. John Healy Sr., President, Intertribal
                    Transportation Association (ITA)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

     Prepared Statement of Melanie Bahnke, President, Kawerak, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                ______

 Prepared Statement of the National Congress of American Indians (NCAI)
    On behalf of the National Congress of American Indians (NCAI),
thank you for the opportunity to provide testimony for the record on
transportation in Indian Country. NCAI is the oldest and largest
national organization in the United States and is steadfastly dedicated
to protecting the rights of tribal governments to achieve
selfdetermination and self-sufficiency. NCAI commends the Senate
Committee on Indian Affairs for examining the tribal transportation
infrastructure and the upcoming transportation reauthorization and we
look forward to working with the members of this Committee to enhance
investments in transportation infrastructure development.
    Tribal transportation programs are critical to ensuring that tribal
governments can provide for the economic and social well-being of their
tribal members and members of the surrounding communities. Adequate and
safe roads, transit, bridges, and infrastructure are the means that
tribal economic opportunities, and that elders rely on for healthcare
and mobility. When legislation is enacted that impacts how tribes carry
out their tribal transportation program, it is key that implementation
occurs in a timely manner and takes tribal self-determination into
account.
Background on Tribal Transportation
    Surface transportation in Indian Country involves thousands of
miles of roads, bridges, and highways. According to the latest National
Tribal Transportation Facility Inventory (NTTFI), \1\ there are
approximately 159,000 miles of roads and trails in Indian Country owned
and maintained by the Bureau of Indian Affairs (BIA), tribes, and
states and counties. Of those, Indian tribes own and maintain 13,650
miles of roads and trails, of which only 1,000 (or 7.3 percent) are
paved--12,650 miles are gravel, earth, or primitive. These 12,650 miles
of roadways are still among the most underdeveloped and unsafe road
networks in the nation, even though they are the primary means of
access to American Indian and Alaska Native communities by tribal and
non-Indian residents and visitors alike. Of the 27,500 miles owned and
maintained by the BIA, only 7,100 miles are paved and 20,400 miles are
graveled, earth, or primitive. These roads are the primary means of
travel for Indian people across the nation, but they remain the most
underdeveloped road system in the United States.
---------------------------------------------------------------------------
    \1\ 23 USC 202 (b)(1).
---------------------------------------------------------------------------
Preparing for Upcoming Transportation Authorization
    NCAI has partnered with the Intertribal Transportation Association
(ITA) through a formal Memorandum of Understanding creating the NCAI-
ITA Joint Tribal Transportation Task Force, to bring together all
tribes on transportation. Indian tribes and tribal transportation
technical staff came together to identify and develop tribal
transportation positions to prepare for the upcoming transportation
authorization. In addition, NCAI has been participating and
collaborating with tribes and the Tribal Transportation Unity Caucus,
and last month at the Tribal Transportation Reauthorization Unity
Summit was held in Denver, CO. As these positions were identified and
developed, the tribes at the national meeting took into account the
political and fiscal challenges facing Congress as they consider a
transportation authorization this year. These are low or no cost
positions to assist tribes in making transportation programs within
Department of Transportation (DOT) and BIA to be more streamlining or
efficient for tribes to execute their transportation projects. Further,
NCAI has attached to this testimony NCAI Resolution #ECWS-14-006 which
incorporates some of the positions of the Tribal Transportation Unity
Act.
MAP-21--Tribal Transportation Programs
    The current transportation authorization, Moving Ahead for Progress
in the 21st Century (MAP-21) restructured the transportation programs
for Indian tribal governments by establishing and consolidating the
Tribal Transportation Program (TTP) (formerly the Indian Reservation
Programs), eliminating the separately funded IRR Bridge Program and
High Priority Project Program (IRRHPP) and creating discretionary
grants within the TTP for tribal bridges and highway safety programs
and projects. MAP-21 changed the regulatory funding formula for
allocating TTP ``tribal shares'' for transportation construction that
the BIA and FHWA must phase in over a number of years. MAP-21 also
revamped the Section 5311(c) Public Transportation on Indian
Reservations Program (Tribal Transit Program) administered by the
Federal Transit Administration, by establishing a statutory formula for
allocating transit funds among eligible Indian tribes, and increased
funding.
Issues From MAP-21 on Tribal Transportation Programs to be Aware and to
        Consider for the Upcoming Transportation Legislation
    As mentioned, MAP-21 made several programmatic changes to tribal
transportation programs, one of them included the removal of funding of
the Tribal High Priority Projects Program from the Highway Trust Fund
to the U.S. Treasury General Funds and authorized funding for $30
million; since the enactment of MAP-21 this program has not been
appropriated funds for FY 2013 and FY 2014. This program is crucial
because it provides funding to tribes whose TTP annual funding
allocation is inadequate to complete their highest priority projects,
or for tribes that are impacted by emergency or disaster incidents that
leave tribal transportation facilities unusable or inaccessible. NCAI
supports the restoration of this essential program assist tribes to
construct and rehabilitate their most pressing infrastructure needs.
    Both the Tribal Transportation Program and Tribal Transit Program
required rulemakings for implementation. As of today, Federal Lands
Highway (FLH) and BIA have not finalized its rulemaking on
implementation of MAP-21. The agency has held three tribal
consultations; however no final rule has been published since MAP-21
was enacted. The Federal Transit Administration held two meetings with
tribes and published a final rule in the May 9, 2013 Federal Register
(``Notice Of Funding Availability: Solicitation Of Grant Applications
For FY 2013 Tribal Transit Program Funds; And Responses To The November
9, 2012 Solicitation Of Comments'').
    Implementation of the Funding Formula. The funding formula in MAP-
21 formula consists of: 27 percent of funding based on the Tribe's
approved road mileage (national percentage); 39 percent of funding
based on the Tribe's most recent Native American Housing Assistance and
Self-Determination Act (NAHASDA) population (national percentage); 34
percent of funding based on the Tribe's RNDF and Population Adjustment
Factor (PAF) amounts from FY05 to FY11 (regional percentage). The new
formula now takes into account NAHASDA population component and
determines how much each tribe receives for TTP. There are two concerns
NCAI would like to bring to the Committee's attention:

        1.  U.S. Department of Housing and Urban Development (HUD)
        Negotiated Rulemaking Committee. This Negotiate Rulemaking
        Committee is currently reviewing and revising HUD's Indian
        Housing Block Grant (IHBG) formula allocation codified in
        subpart D of part 1000 of HUD's regulations in title 24 of the
        Code of Federal Regulations. The outcome for the IHBG's formula
        will have a significant impact on the TTP and Tribal Transit
        Grant Program statutory allocation formula because it uses the
        tribal population according to Native American Housing
        Assistance and Self-Determination Act of 1996 (NAHASDA, 25 USC
        4101 et seq.). After MAP-21, NCAI has recommended tribes to
        have their transportation departments inform their tribal
        housing authorities about new MAP-21 statutory formula, which
        now uses NAHASDA tribal population component to calculate
        funding allocation. NCAI is uncertain if DOT is aware of this
        Negotiated Rulemaking Committee is currently reviewing the IHBG
        formula allocation or if HUD is aware that MAP-21 authorized
        statutory formula using tribal population from NAHASDA formula
        allocation.

        2.  Tribes are not obligated to report their population numbers
        to HUD. Federal Lands Highway and BIA are having difficulty
        calculating allocation funding for tribes where some tribes
        population is zero because they do not report their population
        numbers to HUD. BIA has stated in testimony on MAP-21
        implementation there are over 25 tribes whose population is at
        zero. This component of the NAHASDA population does not give
        Federal Lands Highway and BIA the ability to accurately
        distribute TTP allocation funds.

    Addressing safety issue for tribes. Safety issues for Indian tribes
are important because many tribal communities are vulnerable by unsafe
and often inaccessible roads, bridges, and ferries. Indian Country
suffers injury and death driving and walking along reservation roadways
at rates far above the national average. According to the Federal
Highway Administration, ``American Indians have the highest rates of
pedestrian injury and death per capita of any racial or ethnic group in
the United States.'' Over the past 25 years, 5.962 fatal motor vehicle
crashes occurred on Indian reservation roads, with 7,093 lives lost.
While the number of fatal crashes in the nation declined 2.2 percent
during this time period, the number of fatal motor vehicle crashes per
year on Indian reservations increased 52.5 percent. Adult motor
vehicle-related death rates for American Indians/Alaska Natives are
more than twice that of the general population. These statistics are
shocking and cry out for major changes in Federal transportation safety
programs serving Indian Country.
    Currently, Indian tribes receive a two percent set-aside from the
National Highway Traffic Safety Administration (NHTSA) Highway Traffic
Safety Grant Section 402 which is administered by BIA; the funding
amount for FY 2014 was $4.7 million. The purpose of Section 402 is
support highway safety plans to help reduce fatalities and injuries on
highways. According to BIA Indian Highway Safety Program (25 CRF PART
181), this program is a competitive grant program, and is meant to
assist tribes with their proposed Highway Safety Projects. The plans
aim to reduce traffic crashes, reduce impaired driving crashes,
increase occupant protection education, provide Emergency Medical
Service training, and increase police traffic services. Indian tribes
have expressed their concern that the BIA Indian Highway Safety Program
with the accountability and efficiency this program is providing to
Indian tribes for highway safety projects. In reviewing grant awards,
tribes have noted that the grants being awarded within the BIA Indian
Highway Safety Plan are awarded for law enforcement initiatives and are
not going to other safety prevention programs, leaving tribes in effect
with no access to safety funding. NCAI recommends: (1) the
establishment of a two percent direct tribal funding set-aside from the
Highway Safety Improvement Program for the purpose of reducing traffic
fatalities and injuries on tribal transportation systems; and (2) to
increase the current set-aside of two percent for tribes for the NHTSA
Highway Safety Grant to three and half percent.
    Create and Expand Tribal Self-Governance Programs under the DOT.
Creating and expanding Self-Governance Programs within DOT will
streamline grant-funding agreements for federal transportation programs
and more efficiently target limited transportation dollars to the
improvement of tribal transportation systems. This important step will
provide an additional option to tribes and will not supplant the
existing TTP agreements.
    Improve the speed and efficiency in getting Emergency Relief for
Federally Owned Roads (ERFO) funding to tribes. Currently, ERFO funding
is available to tribes to restore BIA and tribally owned roads and
bridges to their pre-disaster condition. Currently there is a great
delay between the time tribes to expend funds to fix these facilities,
and the time they are reimbursed for these costs.
    Ensure tribal eligibility for all DOT discretionary and competitive
grants. Tribal governments are increasingly gaining direct access to
federal transportation grants, but this provision would ensure that
tribes have access to all discretionary and competitive grants to
increase tribal funding opportunities without increasing the overall
cost of the next highway bill.
    Adequately fund MAP-21 requirement that tribal bridges must now be
inspected and included on the National Bridge Inventory. This proposal
would amend MAP-21's unfunded mandate to require that the inspection
costs for including BIA and tribal bridges in the National Bridge
Inventory come from Federal-Aid bridge program funds rather than from
TTP funds.
    Improve BIA Right-of-Way Management. Right-of-way management would
be greatly improved by requiring the BIA to update and computerize
rights-of-way documentation, support tribal corridor management
practices, and pay trespass damages for BIA improperly obtained or
recorded rightsof- way. This Committee should authorize $10 million per
year to cover the cost of these statutory requirements.
    Ease the transfer of Federal Aid funds for tribal transportation
projects. Current barriers to transfers of federal-aid funds to Indian
tribes must be eliminated by requiring the BIA or FHWA to award state-
administered federal-aid funds to tribes under their TTP agreements. If
a tribe and state prefer, the state may make the funding award directly
to the tribe under an appropriate award instrument that respects tribal
sovereignty and the government-to-government nature of the agreement.
    Give tribes the option of assuming NEPA approval authority. This
proposal would enable tribes the option, but does not require them, to
assume responsibility for approving NEPA documents, if the tribe is
willing to provide a limited sovereign immunity waiver. At the option
of the tribe, the BIA or FHWA can perform this function, but if a tribe
prefers to assume the NEPA responsibility itself, it will be required
to provide a limited waiver of sovereign immunity allowing for
administrative challenges to the tribe's NEPA decision. This NEPA
provision would be modeled on the successful Title V Self-Governance
Program administered by the Indian Health Service.
    Increased funding for Tribal Technical Assistance Program (TTAP).
The Tribal Technical Assistance Program (TTAP) is the only technical
assistance program that provides much needed transportation related
education and training to tribal governments for transportation road
projects. Education and certification is important to assist in
building a viable tribal transportation work force. In addition, well
qualified skilled workers enable Indian tribes and Alaska Native
Villages to further develop tribal transportation infrastructures.
    There are currently seven TTAP centers located around the country.
TTAP is funded by both the FHWA and BIA. Currently, each TTAP receives
$300,000 a year in total funding, which is comprised of $150,000 from
the Local Technical Assistance Program and $150,000 from the IRR
program. This totals about $1.9 million for the overall TTAP funding
each fiscal year to serve all 566 federally recognized tribes. To
ensure that TTAPs are able to meet the increased demand for their
services and as additional tribes assume responsibility for
administering their own transportation programs, NCAI recommends
Congress to increase to the overall funding of TTAPs from $2.1 million
to $3.6 million each fiscal year. This needed funding will assist each
TTAP center to adequately address the increasing need for
transportation technical assistances.
BIA Road Maintenance
    Although the subject of this hearing is on the upcoming
transportation authorization, one of important transportation program
for tribes is the BIA Road Maintenance. The BIA implements, funds, (the
funding is appropriated through the Interior, Environment and Related
Agencies) and is responsible for maintaining 29,500 miles of roads in
Indian Country. The BIA Road Maintenance is funded approximately $25
million and funding levels have remained stagnant for several fiscal
year cycles, compromising highway safety in Indian Country,
dramatically shortening the useful life of the BIA System and tribal
roads and bridges, and undermining tribal economic development
initiatives in Indian Country. For FY 2013, deferred maintenance for
BIA roads is over $280 million. These staggering amounts of deferred
maintenance on BIA roads are transportation and maintenance costs all
directly on to tribes--Indian Country cannot afford to divert their
scarce resources to transportation infrastructure that is BIA's
responsibility. We are quite concerned that U.S. Department of the
Interior has again requested only $25 million for FY 2015 the BIA Road
Maintenance which has remained unchanged again for decades.
    In conclusion, NCAI is committed to improving and building upon the
successes of the last authorization of MAP-21 because transportation
infrastructure is vital to the enhancement of tribal governments and
safety of their communities and visitors who utilize transportation
facilities in Indian Country. Strengthening tribal governments and
their communities by providing safe and reliable transportation
infrastructure is essential for our communities to prosper.
    Attachment
   The National Congress of American Indians Resolution # ECWS-14-006
TITLE: Unified Positions to Address the Transportation Needs of Tribal
        Nations
    WHEREAS, we, the members of the National Congress of American
Indians of the United States, invoking the divine blessing of the
Creator upon our efforts and purposes, in order to preserve for
ourselves and our descendants the inherent sovereign rights of our
Indian nations, rights secured under Indian treaties and agreements
with the United States, and all other rights and benefits to which we
are entitled under the laws and Constitution of the United States, to
enlighten the public toward a better understanding of the Indian
people, to preserve Indian cultural values, and otherwise promote the
health, safety and welfare of the Indian people, do hereby establish
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was
established in 1944 and is the oldest and largest national organization
of American Indian and Alaska Native tribal governments; and
    WHEREAS, on February 25 and 26, 2014 the Tribal Transportation
Reauthorization Unity Summit was held in Denver, Colorado, and the
Summit resulted in the development of Tribal Transportation Unity Act
positions; and
    WHEREAS, the Tribal leaders and tribal transportation officials of
the Tribal Transportation Reauthorization Unity Summit developed the
DENVER UNITY STATEMENT 2014, that calls upon all tribal Nations, the
National Congress of American Indians and Intertribal Transportation
Association, National Tribal Transit Association, and all other
intertribal organizations to embrace the positions developed in Denver
and to work jointly with the Tribal Transportation Unity Caucus and
tribal advocates to develop policy briefing materials, draft proposed
legislative language and engage with the congressional committee
leadership and staff to advance the mutually agreed upon objectives
identified in the attached TRIBAL TRANSPORTATION UNITY ACT SUMMARY FOR
THE 113th CONGRESS February 27, 2014.
    NOW THEREFORE BE IT RESOLVED, that the National Congress of
American Indians supports the effort of the Tribal Transportation
Reauthorization Unity Summit and does hereby honor the participant's
request for the National Congress of American Indians to embrace the
TRIBAL TRANSPORTATION UNITY ACT SUMMARY FOR THE 113th CONGRESS OF
February 27, 2014; and
    NOW THEREFORE BE IT ALSO RESOLVED, that the National Congress of
American Indians will assist the Tribal Transportation Unity Caucus in:
the development of policy briefing materials; drafting of proposed
legislation language; engaging the congressional committee leadership
and staff to advance the objectives of the Tribal Transportation Unity
Act positions; and
    BE IT FURTHER RESOLVED, that this resolution shall be the policy of
NCAI until it is withdrawn or modified by subsequent resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the Executive Committee at
the 2014 Executive Council Winter Session of the National Congress of
American Indians, held at the Westin Washington City Center March 11-
13, 2014, in Washington, DC with a quorum present.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

Prepared Statement of Hon. Floyd Jourdain, Jr., Chairman, Red Lake Band
                          of Chippewa Indians

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

 Prepared Statement of Hon. Nathan Small, Chairman, Fort Hall Business
                                Council

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

          Prepared Statement of the Standing Rock Sioux Tribe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

 Prepared Statement of Hon. Fred Vallo, Sr., Governor, Pueblo of Acoma
Introduction
    The Pueblo of Acoma is a federally recognized Indian tribe and the
traditional village is a National Historic Site located about 55 miles
west of Albuquerque, New Mexico. According to the 2005 BIA Labor Force
Report, there are 4,983 Acoma tribal members residing on the
reservation. There are over 6,344 enrolled tribal members. The Pueblo
of Acoma is governed by a traditional twelve-member Tribal Council.
Reporting to the Tribal Council is the traditional Tribal
Administration staff: Governor, 1st Lt. Governor, 2nd Lt. Governor,
Tribal Secretary and Interpreter. The ancestral village of the Acoma
people is ``Sky City,'' located 16 miles south of Interstate 40 off of
Exit 102. ``Sky City'' is the oldest, continuously inhabited village in
the United States. About 50 members of the tribe live in ``Sky City''
year round, while other tribal members reside at communities along the
Interstate 40 corridor and Rio San Jose valley area. ``Sky City'' and
the Haaku' Museum is destination points for more than 40,000 national
and international visitors annually. Interstate 40 and the BNSF Railway
cross Acoma tribal lands on the northern most section of the
reservation.
    Acoma Pueblo has over 330 miles of BIA and tribal roads. In 2013,
Acoma Pueblo's Long Range Transportation Plan (LRTP) was updated; over
30 transportation projects were prioritized with a projected cost at
about $100 million. This includes the safety need to construct a new
1,000-foot span bridge over the BNSF Railway; total bridge and road
extension project is $28 million and is 0.5 mile. A feasibility study
was completed in 2004 and this project is construction ready. Planning
and preliminary engineering costs were funded with New Mexico
Department of Transportation (NMDOT) funds and Indian Reservation Road
(IRR) funds.
    Starting in 2009, Acoma Pueblo entered into a Referenced Funding
Agreement (RFA) with the U.S. Department of Transportation Federal
Highway Administration (FHWA) to receive Indian Reservation Roads (IRR)
program funds now the Tribal Transportation Program (TTP) funds.

FHWA--2009 IRR (Indian Reservation Road, SAFETEA-LU)       $1,305,404.91
FHWA--2009 ARRA IRR--SP 34 Phase I                           $820,996.00
FHWA--2009 ARRA HPP (High Priority Project)--M11           $1,000,000.00
 Bridge
FHWA--2010 IRR                                               $961,690.84
FHWA--2010 IRR BP (Bridge Program)--M111 Bridge              $500,000.00
FHWA--2010 IRR BP--M117 Bridge                               $600,000.00
FHWA--2010 IRR BP--M122 Bridge                               $150,000.00
FHWA--2011 IRR                                               $910,618.00
FHWA--2011 IRR BP--M122 Bridge                               $300,000.00
FHWA--2011 Federal Highway Discretionary Program           $1,300,000.00
FHWA--2012 IRR                                               $790,811.00
FHWA--2013 TTP (Tribal Transportation Program, MAP-        $1,241,375.39
 21)
FHWA--2014 TTP and TTP Safety Program                      $1,364,251.18
------------------------------------------------------------------------

    During the last 4 years of the IRR Program, Acoma Pueblo's annual
formula funding decreased from $1,305,404.91 to $790,811.00. During the
first two years of MAP-21 TTP funding, Acoma Pueblo averaged about $1.3
million. This historical funding will not fund the proposed $28 million
Mesa Hill Bridge and SP 36 Road Extension Project over the BNSF Railway
tracks. The Congressional FY 2014 appropriation of $450 million is
severely underfunded to meet the transportation needs of Indian tribes
and Alaskan native villages including Acoma Pueblo.
    Because the annual allocation of IRR funds, now TTP funds, is
inadequate, Acoma Pueblo must secure other non-TTP funds including
state funds. The success to find other FHWA funds is noted above.
Between 2005 and 2013, Acoma Pueblo was successful and secured about
$5,443,402 in New Mexico state funds for transportation projects.
    Finally, was the intent of the tribal transportation program to
target BIA and tribal roads? Only 340 of 566 Indian tribes and Alaskan
native villages have BIA roads. The other 226 Indian tribes and Alaskan
native villages use TTP funds for state, county and other roads. In
summary, the current (excluding 18,761 miles of proposed roads)
national tribal transportation facility inventory (miles) ownership is
as follows:

------------------------------------------------------------------------
                                        County/
     BIA        Tribal       State     Township/     Other       Total
                                       Burrough
------------------------------------------------------------------------
29,052            15,603      22,415      64,831       7,596     139,497
21%                  11%         16%         47%          5%        100%
------------------------------------------------------------------------

    This creates a lingering, ongoing need to adequately fund BIA and
tribal roads (32 percent combined) located within Indian reservation
boundaries including roads within Acoma Pueblo.
Common Recommendations In Indian Country
    Acoma Pueblo supports the following recommendations with other
Indian tribes and Alaskan native villages:

  <bullet> Increase TTP funding to $800 million for FY 2015 with annual
        step increases of $50 million resulting in annual funding of
        $1.05 billion in FY 2020. Because funding for the TTP has not
        been increased since 2009, and has actually been reduced
        through take downs, this funding recommendation is modest.

  <bullet> Establish a Tribal Maintenance Program at $50 million with
        annual step increases of $5 million, for BIA and tribally owned
        transportation facilities, and encourage funding of at least
        $150 million for the BIA road maintenance program.

  <bullet> Increase funding for the Tribal Transit Program, implement
        annual step increases, and ensure stable funding for
        established tribal transit programs.

  <bullet> Restore Highway Trust Fund allocation for the Tribal High
        Priority Projects Program, which has not been funded under MAP-
        21 and increase the maximum grant amount and increase funding
        to $35 million with annual step increases.

  <bullet> Redistribute 10 percent of unused obligation authority to
        the TTP for competitive grants to remote tribes.

  <bullet> Separately fund the TTP Bridge Program at $75 million with
        annual step increases and authorize use of funds for
        construction and design of new bridges.

  <bullet> Establish $75,000 as the minimum annual TTP program funding
        allocation provided this $3 million increase needed to fund
        this minimum amount per tribe comes from an increased
        authorization.

  <bullet> Restore the TTP exemption from the obligation limitation
        deduction.

  <bullet> Reduce BIA and FHWA administrative take downs from 6 percent
        to 5 percent, and impose a $28 million annual cap.

  <bullet> Begin to address the highway safety crisis in Indian country
        by establishing a 2 percent tribal set-aside from the Highway
        Safety Improvement Program, a 3 percent tribal-set aside from
        NHTSA, and a 3 percent set-aside from the Transportation
        Alternatives Program to build or enhance safe routes to
        schools, scenic byways, and pedestrian paths. Without a tribal
        set-aside, the experience under MAP-21 is that the states
        provide little funding to tribes.

  <bullet> Create a tribal self-governance program under the U.S.
        Department of Transportation (DOT) to streamline funding
        agreements and clarify the extension of the benefits of the
        Indian Self-Determination and Education Assistance Act to DOT.
        This recommendation was vetted with DOT officials in 2011 and
        it was adopted as an amendment to HR 7.

  <bullet> At the request of a state and tribe, require the BIA or FHWA
        to award state administered Federal-Aid funds to a tribe
        through a TTP or ISDEAA agreement to facilitate
        intergovernmental cooperation and collaboration.

  <bullet> Ensure tribal eligibility for all DOT programs and
        discretionary and competitive grants, which was adopted as an
        amendment to HR 7.

  <bullet> Require BIA to improve right-of-way challenges management
        and provide funding to implement corrections, improvement and
        to pay trespass damages.

  <bullet> Authorize tribes to assume responsibility for approving NEPA
        documents if a tribe provides a limited sovereign immunity
        waiver for administrative actions. This is modeled on Title V
        of ISDEAA.

  <bullet> Improve efficiency in delivering Emergency Relief Funds to
        tribes.

  <bullet> Establish a tribal infrastructure bank capitalized at $10
        million to provide low interest loans for tribal transportation
        projects.

  <bullet> Increase funding for the Tribal Technical Assistance
        Program.

Acoma Pueblo Recommendations
    Acoma Pueblo submits the following TTP re-authorization
recommendations:

  <bullet> The re-authorization of the Tribal Transportation Program be
        separated from MAP-21 and be re-authorized on its own similar
        to how the Native American Housing Assistance and Self-
        Determination Act (NAHASDA) separated Indian Housing from the
        U.S. Department of Housing and Urban Development's (HUD) Public
        and Indian Housing Program. The re-authorization of the Tribal
        Transportation Program shall be established under a new law
        called the Native American Transportation Assistance and Self
        Determination Act (NATASDA) or similar.

  <bullet> Similar to the Office of Native American Programs (ONAP)
        within the U.S. Department of HUD, the Office of Tribal
        Transportation Program (OTTP) be created within the U.S.
        Department of Transportation separated from the Federal Lands
        Highway Office. This Office shall report directly to the
        Secretary or designee. The principals of Indian self-
        determination and tribal self-governance identified under the
        Indian Self Determination and Education Assistance Act (ISDEAA)
        will be established.

  <bullet> Mandate that new/amended federal regulations and funding
        formula be created through negotiated rulemaking. Adequate
        funding shall be appropriated to conduct meetings for an 18-
        month period and at regional tribal areas.

  <bullet> Additional funding above current funding levels shall be
        appropriated specifically for BIA and tribal roads within
        reservation lands. The funding formula must include an
        adjustment factor to address this disadvantage need.

  <bullet> A single National Tribal Transportation Training Center
        shall be established to provide a consistent structured,
        certification transportation training program. This national
        training center shall be governed by a governing board
        comprised of tribal transportation representatives.

Conclusion
    The Pueblo of Acoma appreciates the opportunity to provide a
statement on the impact and reauthorization of the MAP-21 Tribal
Transportation Program. We look forward to working with the United
States Congress and the U.S. Department of Transportation to strengthen
a national tribal transportation program that targets BIA and tribal
roads within the guiding principles of tribal self-governance and
Indian self-determination.
    Thank you.
                                 ______

  Prepared Statement of Hon. Tex Hall, Chairman, Mandan, Hidatsa and
                          Arikara Nation (MHA)
Introduction
    Chairman Tester, Vice Chairman Barrasso and members of this
Committee, my name is Tex Hall and I am the Chairman of the Mandan,
Hidatsa and Arikara Nation (MHA). I am also Chairman of the Great
Plains Tribal Chairman's Association, and Chairman of COLT, the
Coalition of Larger Land Based Tribes. I thank you for the opportunity
to present testimony on Tribal Transportation issues. My comments today
focus primarily on my own tribe, but my leadership roles, make me
uniquely aware of the hardships tribes in my region of the country
face, as well as tribes in other regions that have large inventories of
reservation roads. It is more than fair to say, that Tribes with large
land bases, are inadequately funded and cannot keep up with the needs
they have for road maintenance and construction to ensure the safety
and well being of their communities.
    My Tribe the MHA Nation in North Dakota, experiences some of the
coldest annual winter temperatures in the country. Our inability to
clear ice and make repairs, makes travel extremely hazardous and
increases fatalities. We are also located in the heart of the Bakken
formation, where oil and gas development drives both our tribal and
regional economy. Our boom in oil development has resulted in heavy
truck traffic. Without adequate roads and roads maintenance our current
level of oil and gas development cannot be sustained and our roads are
unsafe. Unfortunately, we have not had assistance from the Bureau of
Indian Affairs, and other Federal agencies to help force oil companies,
and other outsiders, that use our BIA and Tribal roads, to assist with
the maintenance and repair of these roads. We have had to use our own
resources to repair and maintain roads, but our resources cannot keep
up with our needs. Without adequate funding from the Tribal
Transportation Program, we cannot keep up with the destruction to our
roads, and the safety problems created by oil and gas development and
heavy truck traffic. We cannot ensure the safety of our community
members that travel daily on these same roads.
    Our reservation houses in excess of 1,000 on-reservation oil and
gas wells. The operation of these wells requires what today are in
excess of 20,000 large trucks to transport the well materials to and
from the drilling sites. These heavy trucks are traveling on the same
federal and tribal roads as our school busses, our ambulances and our
tribal members. BIA funded reservation roads were not designed, to
handle heavy weight or this level of truck traffic.
    Our problems are not unique reservations in Wyoming, Utah, Montana,
New Mexico and Arizona where there is oil, gas and coal development
have also experienced excessive damage to their federal and tribal
roads. And like my tribe, they received little help from their states.
Under existing law, a huge percentage of energy development dollars
continue to go to state governments which feel little or no obligation
to help the tribe build and maintain roads, bridges and other
infrastructure. States insist that road construction and maintenance is
solely a federal responsibility.
    Members of the House and Senate Committees that are working on
Transportation and Infrastructure funding, and reauthorization, have
expressed the need for more money to help the economy and create jobs.
They say the country is approaching a crisis this summer if a solution
is not found to adequately support the Highway Trust Fund at a level
that allows our economy to grow. I know this is true at our Tribe. We
can not succeed in creating more jobs and more opportunity if our
infrastructure cannot keep up. To address challenges Tribes face during
this time of fast development the Tribal Transportation Program, needs
more funding for construction and maintenance of roads, rail lines and
bridges. My hope is the short fall predicted to occur this summer under
the Highway Trust Fund will create the opportunity for members of
Congress to find a solution that increases the fund and allows for
reauthorization of the Transportation bill that more adequately
addresses Tribal needs.
Reauthorization of Tribal Transportation Programs
    The large land based tribes have complained in recent years that
they have watched their funding dwindle as money under the Indian Roads
Reservation Program was diverted to communities with less population
and inventory. These problems have been addressed in large part by MAP-
21 through a statutory formula, and we like many of the other larger
land based reservations strongly support the formula as a more
equitable way of distributing Transportation funding to all Tribes. We
agree with the Testimony presented to the committee by Tribal leaders
Wes Martel (The Eastern Shoshone and Northern Arapaho Tribes) and Sam
Buckles (Fort Peck Tribes) that the Indian Reservation Roads program,
(now referred to as the Tribal Transportation Program) has served a
critical need in Indian Country but has been inadequately funded. The
funding for 566 Federal Tribes has not increase its current level of
funding at $450 million since FY 2009. And when you count the need for
road maintenance, bridges and safety planning the Department of
Transportation admits to nearly $80 billion in unmet Tribal
Transportation needs.
    For MHA, bridge construction is a priority, and we were
disappointed that under MAP 21, the authorization levels for Tribes
decreased, because the committee with jurisdiction transferred the
bridge program to the road construction account. The result was less
money designated for bridges, and instead bridge funding appeared as a
take down form the roads construction funds. The MHA Nation's Charging
Eagle Bridge has been authorized for almost 40 years. Yet we have not
had the funding to move forward with the project. This bridge is
essential to the development of natural resources in the more remote
areas of reservation and would provide easier access to health care and
other essential services for our community members. Restoring separate
funding for bridges and increasing over all funding for the Tribal
Transportation is a priority for MHA in the next reauthorization bill.
Our recommendation is to separately fund the Tribal Transportation
Bridge Program and increase the funding to 200 million.
Road Maintenance
    Each year the federal government spends millions of dollars on new
roads only to let those investments deteriorate from inadequate
maintenance. Roads which were designed to last 20 years are virtually
unusable after ten due to lack of adequate road maintenance funding.
The BIA is responsible for providing Tribes with Road maintenance
funding. However, the funding BIA provides is less than 25 percent of
what BIA admits is needed to maintain the system. The BIA is
appropriated approximately $25 million per year for road maintenance.
OMB has not allow BIA to increase this amount for over 22 years. As a
result the condition of Tribal and BIA roads have dramatically
deteriorated.
    MAP-21 allows Tribes to use 25 percent of their Roads Construction
money towards roads maintenance needs. That level of additional funding
only takes away from our construction dollars, and fails to address the
inadequate appropriation the BIA receives for roads maintenance. MHA
would like the BIA to receive adequate appropriations for road
maintenance as described below or to create a separate funding program
out of the Highway Trust fund for Tribal Road maintenance similar to
other Federal Lands Highway Programs. The current level of funding in
the BIA program has been inadequate from too long.
Support for Unity Summit Recommendations
    Last month Tribal Transportation planners gathered in Denver
Colorado, to discuss the reauthorization of the Transportation bill,
and came out with Unity Summit recommendations. MHA supports the
following recommendations of the Unity Caucus:

  <bullet> Increasing funding for the TTP to $800 million for FY 2015
        with annual step increases of $50 million. This will result in
        an annual funding level of $1.05 billion in FY 2020.

  <bullet> Establish a Tribal Maintenance Program at $50 million with
        annual step increases of $5 million, and encourage funding of
        at least $150 million for the BIA road maintenance program.

  <bullet> Increase funding for the Tribal Transit Program, and
        implement annual step increases for that tribal program.

  <bullet> Redistribute 10 percent of all unused obligation authority
        to the TTP and use these funds to make competitive grants to
        remote tribes.

  <bullet> Separately fund the TTP Bridge Program at $200 million with
        annual step increases and authorize the use of these funds for
        construction and design of new bridges. (This is an increase
        over the Unity Summit recommendations)

  <bullet> Restore the TTP exemption from the obligation limitation
        deduction.

  <bullet> Reduce BIA and FHWA administrative costs from 6 percent to 5
        percent, and impose a 28 million annual cap on that
        administrative funding.

  <bullet> Begin to address the highway safety crisis in Indian country
        by establishing a 2 percent tribal set-aside from the Highway
        Safety Improvement Program, a 3 percent tribal-set aside from
        NHTSA, and a 3 percent set-aside from the Transportation
        Alternatives program to build or enhance safe routes to
        schools, scenic byways, and pedestrian paths and authorize
        direct tribal funding under the rail construction program.

  <bullet> Create a tribal self-governance program under the U.S.
        Department of Transportation (DOT) to streamline tribal funding
        agreements and clarify the that this funding can be accessed
        from DOT using the Indian Self-Determination and Education
        Assistance Act. This recommendation was vetted with DOT
        officials in 2011 and it was adopted as an amendment to HR 7.

  <bullet> At the request of a state and tribe, require the BIA or FHWA
        to award state administered Federal-Aid funds to a tribe
        through a TTP or a P.L. 93-638 agreement.

  <bullet> Ensure tribal eligibility for all DOT programs and
        discretionary and competitive grants in the manner previously
        included in HR 7.

  <bullet> Require BIA to improve its management of Right-of-Way
        challenges and require the BIA to provide funding to tribes to
        implement corrections and improvement and to pay trespass
        damages.

  <bullet> Authorize tribes to assume responsibility for approving NEPA
        documents if a tribe provides a limited sovereign immunity
        waiver for administrative actions.

  <bullet> Order the federal agencies to improve their efficiency in
        delivering Emergency Relief Funds to tribes.

  <bullet> Establish a tribal infrastructure bank capitalized at $10
        million to provide low interest loans for tribal transportation
        projects.

  <bullet> Increase funding for the Tribal Technical Assistance
        Program.

  <bullet> Provide an adequate set aside in the Highway Trust Fund to
        pay the added costs of roads construction and roads maintenance
        on tribal and federal roads negatively impacted by energy
        production. (Not in Unity Summit recommendations buy badly
        needed for Tribes impacted by heavy truck traffic.)

  <bullet> Adequately Fund MAP 21 requirements that tribal bridges must
        now be inspected and include on the National Bridge Inventory.
        This would amend MAP 21's unfunded mandate to require that the
        inspection costs for including BIA and tribal bridges in the
        National Bridge inventory comes from Federal-Aid bridge program
        funds rather than from TTP funds.

  <bullet> Improve the speed and efficiency in getting Emergency Relief
        for Federally owned Roads (ERFO) funding to Tribes. This
        proposal would streamline the ERFO application process to speed
        the time Tribes are reimbursed for their ERFO expenditures.

    COLT the coalition of larger land based tribes adopted a resolution
at its Impact Meeting in Washington DC on March 6, 2014. (Attached)
That resolution supported the Unity Summit recommendations in large
part, but qualified its support for funding each tribe at a base
funding level of $75,000.00, and for funding the High Priority Roads
program as currently applied under MAP 21 and the proposed regulations.
Since the COLT resolution was adopted, the language in the Unity Summit
recommendations has been defined, to allow $75,000.00 as the minimum
annual Tribal Transportation Program funding provided that the $3
million increase needed to fund this minimum amount per tribe comes
from increased authorization funding. Therefore, this minimum would not
further erode funding in the Tribal Transportation Program. MHA could
support this base funding amount for each tribe if this increase in
funding is authorized.
    With the High Priority Projects Program, the large land based
tribes, have not been allow to compete for this funding in the past.
The program has given the scoring advantage to very small Tribes in
isolated geographic locations and to tribes that have not completed a
construction project with their current levels of funding. In short the
High Priority Projects Program was designed to help only small
communities in regions with limited or no roads access. Therefore,
large land based Tribes with Reservation Roads, could not compete even
though their funding was grossly inadequate to complete their priority
projects. The group that met in Denver as part of the Unity Summit
agreed that the program should be funded and that all tribes should be
on equal footing. Therefore, MHA can agree to support fully funding the
High Priority Projects Program as describe in the Unity Recommendations
if all tribes are allowed to compete, and the program does not give an
advantage to Tribes or Native Villages that are geographically isolated
or who have completed a construction project. (see attached COLT
resolution and Unity Summit Recommendations)
Closing
    Thank you for allowing the MHA Nation this opportunity to present
its testimony and recommendations to address Transportation needs in
Indian Country. If we can answer any questions, or provide any
additional information, please do not hesitate to contact me.
    Attachments

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     ______

Prepared Statement of Ralph Andersen, President/CEO, Bristol Bay Native
                           Association (BBNA)
Introduction
    Thank you for this opportunity to provide testimony on the tribal
provisions being developed for the transportation act reauthorization.
I am Ralph Andersen, President and CEO of the Bristol Bay Native
Association (BBNA), which is headquartered in Dillingham, Alaska. BBNA
is a consortium made up of the 31 federally recognized tribes in the
Bristol Bay Region, which has land area in southwest Alaska about the
size of Ohio. We operate most Bureau of Indian Affairs service programs
in our region via a Self-Governance Compact, and we have operated the
BIA's Tribal Transportation Program (TTP) under compact for six tribes
since 2006, which increased to seven tribes this year.
Summary of BBNA Position
    I have attached to this written testimony BBNA Resolution 2014-07,
adopted by our board of directors on March 21, 2014, which establishes
BBNA's policy position regarding the MAP-21 Reauthorization. We support
the recommendations of the Tribal Unity Caucus, which met in Denver in
February, and which include increased funding for tribal transportation
programs, the clear extension of PL 93-638 compacting to the Department
of Transportation, the establishment of a $75,000 base budget for
tribes, and full funding for the High Priority Projects Program, among
other recommendations.
    The Unity Caucus did not take a position on, or even discuss, the
TTP funding formula as such, but BBNA strongly supports a new
negotiated rule-making or some other tribally-driven process to
determine the funding distribution for all tribal programs funded by
the transportation act. We believe the success of the Tribal Unity
Caucus itself demonstrates that tribal processes can deal with complex
issues. The current statutory formula in MAP-21 has serious flaws--not
the least of which is that it freezes in place all the mistakes made by
the BIA in developing the IRR inventory under SAFETEA-LU.
Background on BBNA
    As noted BBNA has operated the IRR and current TIP programs under
compact since 2006, and before that we performed some IRR activities by
contract. In the past several years we completed an American Recovery
and Reinvestment Act IRR construction project, and acquired Denali
Access Program funds to supplement two of our projects. We currently
have one project in construction, though full funding has not been
secured, and several others in the development phase for the plans,
specifications, and estimates packages, as well as ongoing planning,
safety, and maintenance projects. We also have a Tribal Transit
Planning grant through the Federal Transit Administration.
    Current BBNA staff have been involved with each of the highway bill
reauthorizations since the TEA-21 act in 1998 and participated
extensively in the negotiated rule-making which led to the 2004 IRR
regulations. We have regularly attended the TTP Coordinating Committee
meetings, and in February of this year our staff assisted in the
development of the ``Tribal Transportation Unity Act'' recommendations.
In particular we know how to read the inventory data and we are
familiar with the numerous BIA implementation problems and their impact
on the funding distribution.
    Like other tribes and consortia, we have far greater transportation
needs than we have funding to meet. Bristol Bay tribes were by no means
particular funding beneficiaries of the 2004 IRR regulation or of well-
known BIA implementation errors that benefited some tribes. We
benefited from the regulation's program changes, but in terms of
funding shares our increases were modest and about what you would
expect with the appropriations. The highest annual IRR funding share
BBNA ever received for all six of our participating tribes combined was
about $400,000 in 2009. Generally we have ranged in the $350,000 to
$380,000 range for six tribes. One tribe in our roads program had a
share of$109,000 in FY 2013, and the rest are all less than $70,000
with the smallest tribal share being about $30,000. You can't really
build roads at $30,000 per year.
    BBNA is not of the belief that the BIA's transportation program is
responsible to fully fund all our transportation needs, or for that
matter to build entire road networks into rural Alaska comparable to
the federal, state and county road systems in the lower 48 states.
However, we do believe the BIA program should meet some needs in our
villages and provide a stable program sufficient to serve as a base for
collaboration and cooperative efforts with other agencies. Our approach
has to been to leverage BIA funding with funding from other sources.
Problems With MAP-21
    Unfortunately, some of the changes in MAP-21 were very harmful to
us. In addition to eliminating the ``Population Adjustment Factor'' in
the prior formula that was specifically to help smaller tribes, MAP-21
eliminated two of our greatest resources:

        1.  The High Priority Projects program established by the
        negotiated rule, which MAP- 21 kept on paper but did not fund.

        2.  The Denali Access Program.

    Additionally, MAP-21 directs the states' efforts to focus on the
National Highway System. This has hindered the State of Alaska's
ability to fund or even partner on critically needed projects in rural
Alaska. The Tiger Grant program, though appearing to offer assistance,
doesn't offer much help to remote tribes. The requirement to provide
data for a cost benefit analysis predictably precludes funding of
projects in remote, low population areas.
    With all of these factors considered, MAP-21 has gutted the ability
of small communities in Alaska to build critically needed projects or
for most of our tribes to operate viable ongoing tribal transportation
programs.
    I don't want to completely stress the negative: MAP-21 has some
good aspects. In the TTP, expanding the use of funds for maintenance
has been a benefit to our region. We believe there are some advantages
to changing to a simple ``road miles'' factor in the formula. But, the
defunding of the High Priority Projects has been a serious harm. We
certainly don't have enough funds to undertake significant construction
with TTP formula funds, and without the HPP, Denali funds, or even fair
access to state funds we no longer have anyone to partner with or any
outside funding to leverage.
    We do appreciate the 2 percent TTP Safety Program, but prefer it
not be a takedown to the funds available for distribution through the
funding formula. The Bridge program is now a 2 percent TTP takedown,
also effectively reducing the amount available for distribution. We
preferred it when it was independent of the TTP, and we also urge that
it be made available for construction of new structures as well as the
replacement and rehabilitation of existing bridges.
    The MAP-21 TTP distribution formula is not only harmful, it appears
to actually be irrational in some respects. A glaring example is that
34 percent is divided equally by the 12 BIA Regions, and then
distributed within each region based upon the tribes' in-region average
IRR funding share from FY 2005 to FY 2011. Mathematically, the major
impact of this is simply to shift money from regions with a large
number of tribes to regions with fewer tribes, without regard to
population, land area, road systems or any other factor that might
actually measure need. I will note in passing that Navajo, a region
with just one tribe, has such a high population that it doesn't really
benefit additionally from this, but otherwise this 34 percent
allocation just takes money away from the tribes in the Pacific and
Alaska regions which have a high number of tribes and gives it to
tribes in the regions with the fewest numbers of tribes. Two
hypothetical tribes absolutely identical in every respect would get
widely differing amounts under the MAP-21 formula depending on which
BIA region they happen to be in. This seems to violate basic equal
protection principles.
    Below is an estimate of the number of tribes within each BIA
Region:

        1. Eastern--28 Tribes
        2. Midwest--35 Tribes
        3. Great Plains--16 Tribes
        4. Rocky Mountain--7 Tribes
        5. Northwest- 45 Tribes
        6. Alaska--228 Tribes
        7. Pacific--105 Tribes
        8. Western--42 Tribes
        9. Navajo--1 Tribe
        10. Southwest--25 Tribes
        11. Southern Plains--23 Tribes
        12. Eastern Oklahoma--20 Tribes

    The BIA Regions are not equal to each other in any measurable way;
they arose by historical accident and administrative convenience. An
``equal per BIA region'' distribution should not be used for any
funding formula.
    Another serious problem is that although the changes to the funding
formula in MAP-21 appear to have been motivated by BIA implementation
errors and perceived over-reaching by some tribes, MAP-21 actually
freezes and locks in place all of those problems and effectively
prohibits the BIA from correcting them. The 34 percent allocation noted
above, the 27 percent road miles allocation and the supplemental
funding allocation all lock in BIA implementation errors by preserving
the Transportation Facility Inventory the way it was in 2012. To the
extent there were perceived abuses under the prior formula
distribution, the MAP-21 formula ``fixes'' the wrong things and
actually continues to provide disproportionate funding to those tribes
that were arguably overfunded due to BIA mistakes.
    We know that some tribes in the Lower 48 don't want changes to the
MAP-21 funding formula; they have seen an increase in their bottom line
funding as MAP-21 is implemented. However, the ``fix'' in MAP-21 was
largely just an arbitrary transfer of funds between regions and doesn't
get at the real problem, which was bad data in the inventory. We
believe that removing the locked-in historical funding and requiring
corrections to the inventory data would in fact provide those harmed by
BIA implementation errors with even more funding. Preserving these
errors by statute is the worst possible result--it not only continues
the inequities it prevents anyone from fixing the data errors that
caused them.
    One thing I would like to stress is that in considering formula
outcomes, it is essential to look at individual tribes and not at BIA
Regions. There has been a lot of finger pointing at ``Alaska'' for
example, and while it is true that some Alaska tribes benefitted from
what we have called BIA implementation errors, a large majority of
Alaska tribes did not benefit. Other tribes in other regions benefited
from other implementation problems. On the ground, our tribes actually
have a lot in common with the large land based tribes in the Lower 48,
which are mostly very rural and have underdeveloped infrastructure.
Another fallacy is to conclude that a ``BIA Region'' or a particular
state benefits because a few tribes do. If one tribe in Alaska or
Montana for example receives a $10 million windfall because of a data
error, that tribe may benefit but the funding comes out of the shares
of all the other tribes in the country, including the other tribes in
Alaska or Montana. It can be very misleading to look at the cumulative
amounts for any BIA Region and conclude that all the tribes within that
region are having the same outcomes. A large increase for one tribe or
a few tribes may mask a significant decrease for all the other tribes
in the same region.
Implementation Errors
    I believe it important to discuss the implementation errors under
the prior formula, not because we think it is desirable or even
possible to revert to that formula, but to provide a background for our
proposed ``solutions.'' The problems were not with the formula as
negotiated by the tribes. Rather, the BIA failed to be a gate keeper.

        1.  The first and perhaps biggest error was that the BIA failed
        to correctly implement one of the main compromises in the
        negotiated formula: that tribes would be allowed to add non-BIA
        roads to the road inventory, but only BIA and tribally owned
        roads were to count at 100 percent in the funding formula. With
        a few limited exceptions other roads--state, county and local
        roads--were to count only at the local match level for
        federally funded projects, i.e. 20 percent or less depending on
        the state. Early on in implementation, the BIA concluded it
        didn't have the data to determine the match rate so it
        arbitrarily counted everything at 1 00 percent. This resulted
        in a massive shift of funding towards state and county roads
        that was never intended to occur. The BIA only partially
        corrected this in later years.

        2.  Some state and urban municipal roads--some of which should
        probably not be in the inventory at all for definitional
        reasons--were still counted at 100 percent right up until MAP-
        21 changed the formula, and are still counted indirectly within
        MAP-21.

        3.  Federally owned roads owned by non-BIA agencies were
        included at 100 percent. This was based on a misreading of a
        poorly written part of the regulations, and as a policy matter
        makes no sense. Those agencies have their own federal
        appropriations for road construction and maintenance and their
        roads should not be the responsibility of the BIA. (Some of
        these roads may be ``primary access roads'' for the tribe and
        thus belong in the inventory under the SAFETEA-LU inventory
        language, but most do not--at least not at 100 percent
        funding.)

        4.  The BIA never adopted a policy regarding limits to the
        length routes could extend beyond reservations or Alaska Native
        villages and count for funding purposes in the inventory, or
        the closely related issue of how the boundary of tribal areas
        would be determined. While this was not in the negotiated
        regulations, it is an obvious gap in the regulations that
        should have been one of the first issues addressed by the
        Program Coordinating Committee. These issues were known by the
        negotiated rule-making committee but it just didn't have time
        to address them, apparently believing the BIA would simply
        follow its prior policy on these issues. That did not occur.

        5.  In regard to proposed roads, the BIA failed to follow
        statutory standards and widely understood industry standards
        for transportation planning.

          a.  They allowed routes based upon 200 or even 300-year long-
        range transportation plans instead of limiting such plans to
        the 20-year window used by the states and thus also required of
        all Federal Lands Highways programs by Title 23. Additionally,
        the tribal transportation planning guides published by the
        government and widely used by tribes called for a 20-year
        planning window and also provided that a reasonable projection
        of revenues be used for planning purposes. As a result, most
        tribes did reasonable transportation plans, but the BIA allowed
        some tribes to disregard these standards and put in billion-
        dollar wish lists of projects that could not possibly be built
        in any foreseeable timeframe or from any known funding source.

          b.  Proposed tribal roads were put into the inventory at 100
        percent funding without proof that the road was feasible to
        build, or even that the tribe had land ownership, jurisdiction,
        or the ability to acquire a public easement. This sort of proof
        should have been required as a matter of course to demonstrate
        the route met the basic definitions governing the IRR program
        in the Title 23 statute. Quite a few ``proposed'' roads were
        allowed in the inventory for funding purposes that would
        actually be illegal to build, by anyone, without an act of
        Congress, because they cross wildlife refuges or other federal
        preserves.

        6.  The BIA allowed proposed roads to generate Vehicle Miles
        Traveled (VMT) in the formula based upon a default value used
        to determine ``Cost to Construct'' versus the actual VMT of a
        non-existent road, which is zero. In this instance the BIA
        disregarded the definitions in its own regulations.

        7.  The BIA allowed the functional classification of a road to
        be inconsistent with the BIA's own functional classification
        system. This resulted in the route being entered at higher
        design standards for cost to construct and application of the
        VMT than actually allowed under the regulations.

        8.  It appears that the BIA allowed some roads to be entered as
        ``proposed'' when there were actually pre-existing unimproved
        roads on the ground. Again, this allowed the routes to generate
        more funding than if they had been accurately described.

    It should be understood that prior to the 2004 regulations, most
tribes had very limited experience performing IRR work themselves
because the program was operated by the BIA on a ``project'' basis and
the program was not generally performed under PL 93-638. In Alaska,
only a relative handful of the tribes had ever received any direct
benefit from the program at all--the BIA had just built a few projects
around the state based on its own priority system. Consequently when
there was a big push to do IRR inventories before and after the 2004
regulations, many tribes and particularly small tribes and even
consortia in Alaska had no experience with the program and either
depended on staff brand new to the IRR program or relied on consultants
and engineering firms. The submittals were widely varied> and some did
push the envelope. It was up to the BIA to be the gate keeper.
    The BIA staff in charge of inventory implementation tended to err
in favor of tribes pushing a particular interpretation for their
specific inventory submittals, without considering the impact on all
the tribes nationally that may have been adversely affected. They made
significant legal and policy decisions, perhaps without realizing it,
and apparently without conferring with the Solicitor's Office or higher
level policy officials. The program staff only looked at the
regulations, without considering the authorizing statutes that also
govern the program. We believe this pattern was a significant breach of
the BIA's trust obligations to tribes.
    One important point, there had been heavy pressure placed upon the
tribal negotiated rulemaking committee members to keep the old Relative
Need Distribution Formula which the BIA and FHW A had developed prior
to and transitioned in during the Intermodal Surface Transportation
Efficiency Act of 1991 (ISTEA). The federal participants were highly
motivated to keep a system in place they had expended significant
money, time, and effort to implement. The negotiated formula thus
actually contained only minor changes from its predecessor. ``Cost to
Improve'' became ``Cost to Construct,'' and the expansion of eligible
routes to drive funding distribution was expanded to include tribally
owned routes. There were concessions to allow some additional routes
owned by others into the inventory, but the negotiators never
anticipated BIA's inability to implement the ``local match'' limit or
other reasonable and responsible controls.
    In any event, the BIA made major mistakes in implementing the
formula/inventory system that was developed by negotiated rule-making.
Each of these mistakes created winners and losers among the tribes, and
in each instance the BIA did not take the underlying policy question to
the Program Coordinating Committee until after the mistake had already
been made and the BIA realized it had a problem. At that point, it was
difficult for the PCC to reach consensus because some tribes had a
vested interest in blocking any change.
    Although we do not believe this was intentional on the part of the
BIA, it does appear that many of the implementation errors had a
particularly negative impact on the large reservation tribes. It is
understandable and predictable that those tribes would ask for changes
to the law. But those mistakes also negatively impacted other tribes
including perhaps 80 percent of Alaska Native villages, and we were
harmed again by MAP-21.
Solutions
    So, how to fix the issues we raise? First, we recommend that
additional funds be secured for the tribal transportation programs. The
current funding, even if strictly limited to BIA and tribally owned
roads, is insufficient.
    Second, we agree with all of the recommendations provided within
the ``Tribal Transportation Unity Act'' developed in Denver.
    Third, we recommend that Congress either require negotiated
rulemaking for the TTP funding formulas, including the Tribal Transit
Program, or that Congress design some other, shorter process to reach a
national tribal consensus on funding distribution. If the tribes were
able to come up with reasonable consensus recommendations at a two-day
meeting in Denver without the presence of federal representatives, it
is hard to believe they couldn't generate a better method for
distributing funds in a mediated meeting also without federal presence/
interference. Congress certainly requires more information from tribes
from across the country than it can get at the last minute in
conference committee. It certainly makes no sense to keep frozen in
place an inventory system/funding distribution system that virtually
everyone involved in the program agrees includes a lot of junk data.
    Fourth, to prevent implementation errors in the future, we believe
the Federal Highway Administration must have a far greater role in the
implementation of the TTP. Perhaps it should be in charge of the
inventory, or perhaps the whole program could be moved to FHW A
provided that PL 93-638 is directly extended to the Department of
Transportation. Road construction is not the BIA's core competence. As
it stands now, we believe that midlevel BIA managers acting without
oversight not only did a great deal of damage to the program they
effectively drove a wedge between tribes.
    We obviously have a lot of thoughts on what an ideal TTP funding
formula should look like, but believe that this should be addressed by
the tribes. Senators will want to see how the tribes in their states
will do, but it can be very misleading just to look at the totals for
states or BIA Regions. The totals may mask serious problems within the
state or region. In developing a needs-based formula, population may be
a key component but it should be kept in mind that the available tribal
population data sets are not very reliable, and that a tribe in a more
densely populated area with state, county or municipal roads may have
less need for BIA funding than a remote rural tribe of the same
population that is completely dependent on the BIA. Having some
proposed roads in the inventory is critical in areas like ours with
little existing road infrastructure, but there must also be clear and
consistent constraints because otherwise there is a virtually infinite
number of possible proposed roads.
    We don't have all the answers, but we firmly believe that given the
opportunity the tribes can come to agreement on a far better formula
then the one negotiated but excessively influenced by federal employees
or the one currently in place in MAP-21. We offer our assistance to
Congress to find an equitable solution. The tribal transportation
programs are critically important to almost every aspect of life in our
communities, from health and safety to economic development to the cost
of living. Lives are on the line. Let's find a way to make sure that
all tribes have a reasonable ability to benefit from these programs.
    I greatly appreciate the opportunity to provide testimony on these
issues.
    Attachment

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     ______

Prepared Statement of Leander R. McDonald, Ph.D., Chairman, Spirit Lake
                                 Tribe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

 Prepared Statement of Hon. Erma J. Vizenor, Tribal Chairwoman, White
                      Earth Band of Ojibwe Indians

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

               Prepared Statement of the Ho-Chunk Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______

   Response to Written Questions Submitted by Hon. Lisa Murkowski to
                             Michael Black
    Question 1. Supporting self-determination in all Indian programs is
critical. Do you believe that MAP-21's removal of a tribally negotiated
formula with a statutory funding formula supports or minimizes Tribal
self-determination? Do you plan to use a negotiated rulemaking process
during MAP-21 reauthorization whereby tribes are engaged and consulted?
    Answer. The Bureau of Indian Affairs (BIA) supports and promotes
self-determination and self-governance for tribes. The negotiated
rulemaking formula was a regulatory formula, but Congress replaced it
with the MAP-21 funding formula. It is difficult to predict the outcome
of the MAP-21 formula until it is fully implemented: there is a four
year transition process to this formula, two of which have transpired,
and the remaining years of the implementation are dependent upon future
legislation. Negotiated rulemaking is a helpful process when warranted.
However, at this time it is not known what provisions will accompany
the reauthorization of the highway act that this would be a
consideration. The BIA and the Federal Highway Administration have been
actively consulting with tribes on transportation matters, such as the
funding formula, the use of the data from the inventory, and a proposed
update of the regulations.

    Question 2. The majority of tribes in the United States are
considered small. Does the MAP-21 formula disproportionately impact
small tribes with small populations; especially, in economically
depressed census areas?
    Answer. Established by MAP-21, the Tribal Transportation Program
(TTP) funding formula found at 23 U.S.C. 202 (b)(3) encompasses three
factors: road mileage, tribal population, and historic funding levels,
and also incorporates a transitional element through a set aside
referred to as Tribal Supplemental Funding. This supplemental funding
is implemented to provide a TTP allocation very similar to the
negotiated rule formula of 2004. The TTP funding formula relies on data
established in the national tribal transportation facility inventory,
the historical allocations of tribal share amounts under SAFETEA-LU,
and the population data from the American Indian and Alaska Native
population within each Indian tribe's American Indian/Alaska Native
Reservation or Statistical Area, as computed under the Native American
Housing Assistance and Self-Determination Act of 1996. Under the MAP-21
formula, tribal population is a large contributor to the tribal
allocation amount as well as the mileage in the national inventory
prior to October 1, 2004 for non-BIA roads and non-tribal roads and
fiscal year 2012 for BIA and tribal roads. In addition, if the historic
funding levels of a tribe is small, it would be reflected in the
allocations under the TTP funding formula.

    Question 3. Director Black, can you describe for the record, the
Administrative rules you have placed on Alaska Native villages in
including road and the need for the construction of roads in our rural
communities in the distribution formula?
    Answer. The Administration has followed the statutory requirements
for inclusion of inventory data such as road miles, construction need
and population into the funding formula, which is the distribution
formula or tribal shares. The statute clearly defines the data that is
to be included in the distribution formula. 23 USC 202 (b)(1) describes
all TTP-eligible facilities in the National Tribal Transportation
Facility Inventory (NTTFI), while 23 USC 202(b)(3) identifies the basis
for the finding formula and how the distribution amounts are to be
computed. The MAP-21 funding formula considers past participation in
the negotiated rule formula of 2004, which incorporated construction
need miles, usage, and population; the MAP-21 funding formula also
considers road miles, the population of each federally recognized Tribe
or Alaska Native village and the funding distribution allocations
received under the negotiated rule.

    Question 4. Currently, traffic safety statistics among tribal
communities outpace national averages. It is concerning to me that we
are not giving proper weight to need in terms of safety that we should.
Currently, the Tribal Bridge Program and the Tribal Transportation
Safety Program are funded with a 2 percent set aside from the TTP fund.
Additionally, the Tribal High Priority Project Program does not provide
funding for Alaska and this hurts 229 tribes. Given these concerns, I
must ask: Do you support putting Tribal High Priority Project funding
back in the Highway Trust Fund so that Alaska tribes might also access
funding for high need projects? Do you plan to examine and adjust the
TTP formula to increase funding for safety, bridges with an eye toward
reevaluating the importance of need in annual funding levels?
    Answer. In April 2014, the Administration announced its
reauthorization proposal, the GROW AMERICA Act. The Administration's
proposal would re-establish the Tribal High Priority Project (THPP)
program back into the TTP as a Highway Trust-funded set aside from the
TTP. The proposed THPP program would provide an opportunity for all
tribes to receive funding for their highest priority projects along
very similar procedures as the former Indian Reservation Roads High
Priority Projects program, which was in 25 CFR Part 170 and was
eliminated with the passage of MAP-21. In addition, the GROW AMERICA
Act proposes increases in available funding for Tribal Transportation
Facility Bridges and Tribal Transportation Planning, as well as
increased funding for program activities.
                                 ______

   Response to Written Questions Submitted by Hon. Lisa Murkowski to
                           Robert W. Sparrow
    Question 1. Supporting self-determination in all Indian programs is
critical. Do you believe that MAP-21's removal of a tribally negotiated
formula with a statutory funding formula supports or minimizes Tribal
self-determination? Do you plan to use a negotiated rulemaking process
during MAP-21 reauthorization whereby tribes are engaged and consulted?
    Answer. Under the Tribal Transportation Program (TTP), tribal
shares of some tribes increased while other tribal shares decreased.
The overall impacts will not be realized for four years due to the
transition period provided in MAP-21.
    FHWA and BIA are working to update the existing Indian Reservation
Roads (IRR) program regulation (25 CFR 170) to reflect the statutory
changes that have occurred to the program. Consultation with the tribes
is underway and will continue through the final publication of the
updated regulation. If additional changes are required to the TTP
regulation as a result of the passage of a MAP-21 reauthorization, we
would again carry out tribal consultation and solicit feedback from the
tribes.

    Question 2. The majority of tribes in the United States are
considered small. Does the MAP 21 formula disproportionately impact
small tribes with small populations; especially, in economically
depressed census areas?
    Answer. The statutory TTP funding formula includes three factors:
road mileage, tribal population, and historic funding levels. Under
this formula, tribes with higher populations generally would receive
more funding than those that have smaller populations. Additionally, if
a tribe has limited mileage in the approved inventory or has a history
of receiving smaller funding levels from the program, these factors
also could impact smaller tribes.

    Question 3. Currently, traffic safety statistics among tribal
communities outpace national averages. It is concerning to me that we
are not giving proper weight to need in terms of safety that we should.
Currently, the Tribal Bridge Program and the Tribal Transportation
Safety Program are funded with a 2 percent set aside from the TTP fund.
Additionally, the Tribal High Priority Project Program does not provide
funding for Alaska and this hurts 229 tribes. Given these concerns, I
must ask: Do you support putting Tribal High Priority Project funding
back in the Highway Trust Fund so that Alaska tribes might also access
funding for high need projects? Do you plan to examine and adjust the
TTP formula to increase funding for safety, bridges with an eye toward
reevaluating the importance of need in annual funding levels?
    Answer. The Administration's reauthorization proposal, The GROW
AMERICA Act, would reinstate the Tribal High Priority Project program
back into the TTP to be funded through a set aside from the TTP. The
program would provide an opportunity for all tribes to receive needed
funding for their highest priority projects. In recognition of the need
for increased availability of safety and bridge funding in Indian
Country, The GROW AMERICA ACT also would increase funding made
available to tribes for safety and bridge projects and activities.

                                  <all>
</pre></body></html>
